<html>
<title> - WEAK BILATERAL LAW ENFORCEMENT PRESENCE AT THE U.S.-MEXICO BORDER: TERRITORIAL INTEGRITY AND SAFETY ISSUES FOR AMERICAN CITIZENS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
  WEAK BILATERAL LAW ENFORCEMENT PRESENCE AT THE U.S.-MEXICO BORDER: 
     TERRITORIAL INTEGRITY AND SAFETY ISSUES FOR AMERICAN CITIZENS

=======================================================================



                            deg.JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                AND THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2005

                               __________

                           Serial No. 109-90

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-608                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                  Michael Volkov, Acting Chief Counsel

           Elizabeth Sokul, Special Counsel for Intelligence

                         and Homeland Security

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel
        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel
                          Art Arthur, Counsel
                         Allison Beach, Counsel
                 Luke Bellocchi, Full Committee Counsel
                  Cindy Blackston, Professional Staff
                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           NOVEMBER 17, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     2
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3
The Honorable Darrell Issa, a Representative in Congress from the 
  State of California, and Member, Subcommittee on Immigration, 
  Border Security, and Claims....................................     4
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims, and Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........    32

                               WITNESSES

Mr. Chris Swecker, Assistant Director, Criminal Investigative 
  Division, Federal Bureau of Investigation
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Mr. William Reid, Acting Assistant Director, Office of 
  Investigations, U.S. Immigration and Customs Enforcement, U.S. 
  Department of Homeland Security
  Oral Testimony.................................................    10
  Prepared Statement.............................................    13
Mr. Reynaldo Garza, Deputy Chief Patrol Agent, Office of Border 
  Patrol, Rio Grande Valley Sector, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security
  Oral Testimony.................................................    20
  Prepared Statement.............................................    21
Mr. T.J. Bonner, President, National Border Patrol Council, 
  American Federation of Government Employees, AFL-CIO
  Oral Testimony.................................................    23
  Prepared Statement.............................................    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, Member of 
  Subcommittee on Crime, Terrorism, and Homeland Security........    32
Article submitted by the Honorable Sheila Jackson Lee: ``8 People 
  Accused of Smuggling Girls for Prostitution,'' Houston 
  Chronicle (November 15, 2005)..................................   034

                                APPENDIX
               Material Submitted for the Hearing Record

Reponses to questions for the Record from Chris Swecker, 
  Assistant Director, Federal Bureau of Investigation............    50
Responses to questions for the Record from Ray Garza, Deputy 
  Chief Patrol Agent, U.S. Customs and Border Protection.........    55
Responses to questions for the Record from William Reid, Acting 
  Assistant Director, Office of Investigations, U.S. Immigration 
  & Customs Enforcement..........................................    56


  WEAK BILATERAL LAW ENFORCEMENT PRESENCE AT THE U.S.-MEXICO BORDER: 
     TERRITORIAL INTEGRITY AND SAFETY ISSUES FOR AMERICAN CITIZENS

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2005

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security

                                  and

                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 10:02 a.m., 
in Room 2141, Rayburn House Office Building, the Honorable 
Howard Coble and the Honorable John Hostettler (Chairmen of the 
Subcommittees] presiding.
    Mr. Coble. Good morning, ladies and gentlemen. Today the 
Subcommittee on Crime, Terrorism, and Homeland Security and the 
Subcommittee on Immigration, Border Security, and Claims 
convene a very important oversight hearing of the Departments 
of Justice and Homeland Security to examine the security and 
safety of the United States citizens living along and traveling 
between the Mexican/United States border. Recently, there have 
been numerous reports outlining the increase of violence in the 
region surrounding Laredo, Texas, and the city across the 
Mexican border, Nuevo Laredo. Most of the violence is 
attributed to the drug-trafficking activities in this region 
and specifically to a group known as ``The Zetas.'' The Zetas 
are an enforcement arm of Gulf Cartel, one of the largest drug 
cartels in Mexico. This panel is concerned about these reports 
and looks forward to hearing the Departments' response to these 
accounts and the efforts being utilized to combat the crime and 
violence in that region.
    The Zetas were originally recruited from a group of Mexican 
Special Forces trained to locate and apprehend drug 
traffickers. However, in 1998, they were recruited by the Gulf 
Cartel to aid in their illegal operations, specifically to 
kidnap and kill rival drug traffickers. Additionally, they are 
now responsible for the safe passage of illegal narcotics 
moving through the region and eventually into the United 
States. According to the Mexican Attorney General's office, 
there were originally 31 deserters that comprised the core 
group of the Zetas but have since recruited more, and their 
ranks are estimated to be as large as 200.
    The Zetas have successfully cultivated an atmosphere of 
fear along the border region around Laredo. Since last year, at 
least 170 people have gone missing throughout the region, 43 of 
whom are Americans from Laredo, Texas. Additionally, there have 
been more than 105 executions in Nuevo Laredo this year as a 
result of the drug violence.
    An article in the February 20, 2005, issue of the Dallas 
Morning News reported that some members of the Zetas are 
operating in North Texas and had hired gang members and other 
criminals to conduct contract killings. The article claimed 
that the Zetas were responsible for three murders in Dallas in 
2004 and were responsible for numerous murders along the U.S.-
Mexican border. Finally, the article claims that the Zetas 
would be willing to use violence against law enforcement 
officials who stand in their way. In fact, numerous police 
officers in Nuevo Laredo have been shot and killed during 
recent attacks attributed to the Zetas. A telling example of 
the ruthlessness and audacity exemplified by the Zetas is the 
assassination of Nuevo Laredo police chief Alejandro Dominguez 
who was gunned down a mere 6 hours after being sworn into 
office.
    The situation became so tenuous that in August of this 
year, United States Ambassador to Mexico Tony Garza closed the 
United States Consulate in Nuevo Laredo due to escalating 
violence. While the State Department did not issue an official 
travel warning to U.S. citizens traveling to this region, this 
panel is deeply concerned for the safety and well-being of our 
citizens who do frequent the region, many on a daily basis. In 
order to successfully stem this tide of violence, our Federal 
law enforcement agencies must not only cooperate with one 
another, but must actively involve the State and local law 
enforcement as well. Additionally, Federal law enforcement 
agencies need to be willing and able to cooperate and 
collaborate with their Mexican counterparts. While I recognize 
that there were problems of corruption facing the Nuevo Laredo 
police department, there certainly must be Mexican Federal 
agencies with whom we can work cooperatively together, it seems 
to me. We need to be addressing this assault on the American 
safety on the other side of the border before it spills into 
the United States. A very dangerous criminal element is at our 
doorstep and knocking. What are we going to do to turn them 
away?
    I am now pleased to recognize the Chairman of the 
Subcommittee on Immigration, Border Security, and Claims, the 
distinguished gentleman from Indiana, Mr. Hostettler, and he 
will be followed by the distinguished gentleman from Virginia, 
Bobby Scott, the Ranking Member on our Subcommittee, and Ms. 
Jackson Lee, who I think is en route. Other Members, without 
objection, will be able to have their opening statements made a 
part of the record.
    The gentleman from Indiana.
    Mr. Hostettler. Thank you, Mr. Chairman, and I want to 
thank you for this opportunity for a joint hearing between our 
Subcommittee and the Subcommittee on Crime, Terrorism, and 
Homeland Security. And I am glad that we are having this joint 
hearing now as we are holding a series of hearings, including 
one at 2 p.m. later today on the impact of illegal aliens on 
Members' constituencies.
    A number of Representatives from the border region 
testified at these hearings about crime rates in their 
district. We discussed evidence of higher crime rates in the 
counties along the border, as well as the inverse relationship 
between more Border Patrol enforcement and the number of 
property and violent crimes in those regions. In fact, I hope 
that one Member from California will testify on that this 
afternoon as part of that continuing series.
    If crime in the border counties decreases with better 
Border Patrol enforcement, and there is a high rate of very 
violent crime along the border, as this hearing will expose. It 
should be a no-brainer that increasing law enforcement presence 
in the region is a ``must do'' if we are to stop those violent 
elements from settling in the United States.
    We owe it to the Americans who live in that area who suffer 
the onslaught of lawlessness across the border every day. When 
every new police chief of Nuevo Laredo is assassinated within 
days of taking office, how can Americans living in Laredo sleep 
at night? In fact, knowing how porous the Southwest border is, 
and the free flow of illegal aliens into this country from 
those very violent regions, it is a wonder any of us get much 
sleep.
    I am also very glad that we are holding a joint hearing 
with the Crime Subcommittee. This is an area of mutual 
interest. As I just mentioned, we need more law enforcement 
presence in the region. That means all kinds of law 
enforcement. So I am glad to see here the Federal Bureau of 
Investigation, Immigration and Customs Enforcement, and Customs 
and Border Protection.
    Each of these agencies plays a pivotal role in guarding 
against the entry of illegal narcotics, weapons, illegal 
aliens, criminals, and violent elements from coming into the 
United States. That is why I am happy to hear that joint task 
forces, such as ``Operation Black Jack,'' let by Immigration 
and Customs Enforcement in Laredo, are bringing different law 
enforcement agencies together for the same overall mission. 
Cooperation among agencies down there is optimal under this 
program, and I can only see it continuing.
    Nevertheless, they need our support, both in getting the 
word out on their good deeds and the need for better resources. 
My esteemed colleague Mr. Smith of Texas sent out a ``Dear 
Colleague'' letter earlier this month titled ``Number of 
Assaults on Border Patrol Agents Nearly Doubles.'' According to 
the Los Angeles Times, Border Patrol agents are increasingly 
assaulted with rocks, Molotov cocktails, and gunfire. There 
have been nearly 700 incidents in the past fiscal year. In 
June, Border Patrol agents were injured by gunfire in a 
shootout with drug thugs along the border.
    If these things do not demonstrate the need for more 
resources to be committed for law enforcement to stem the 
``quiet invasion of violence'' from the Southwest border, I 
really do not know what will. I look forward to the 
Government's presentation and yield back the balance of my 
time.
    Mr. Coble. I thank the gentleman from Indiana.
    The distinguished gentleman from Virginia, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman. I want to thank you and 
Chairman Hostettler and the gentlelady from Texas, Ms. Jackson 
Lee, for holding this joint oversight hearing on ``Weak 
Bilateral Law Enforcement Presence at the U.S.-Mexico Border 
Area: Territorial Integrity and Safe Issues--Safety Issues for 
American Citizens.'' Obviously, just from the title of the 
hearing, we have a serious issue to consider, so I want to 
thank you for bringing this Committee together.
    I'd also like to thank the gentleman from Texas, Mr. 
Cuellar, for effectively working on this issue and bringing a 
lot of information to us. I want to thank him for his hard work 
and dedication.
    Mr. Chairman, recent reports of sensational crime and 
violence on the Southwest border in the Laredo, Texas, and 
Nuevo Laredo, Mexico, area are shocking. Attacks on law 
enforcement, kidnappings on both the Mexican and American side 
of the border for ransom or worse, drug and human smuggling by 
drug cartels, and international gangs and more all sound like 
something out of an over-dramatized movie. While much of it 
occurs on the Mexican side of the border, a great deal involves 
American citizens, and some occurring on the American side of 
the border.
    The temporary closing of the American consulate office in 
Nuevo Laredo following a series of State Department warnings to 
Americans is an indication that something needs to be done.
    So, Mr. Chairman, I look forward to the testimony of our 
witnesses on what needs to be done by Congress to get a handle 
on these disturbing developments, and I would yield the balance 
of my time to the gentleman from California, Mr. Issa, who has 
also been very active on this issue.
    Mr. Coble. The gentleman is recognized.
    Mr. Issa. Thank you, and I'll be very brief.
    I've looked at the testimony, and I look forward to hearing 
both the testimony and your comments and response to questions. 
But I hope that we can include in the tone of today's hearing 
not the success or failure of law enforcement when it comes to 
the officers at the border, the interior enforcement, but the 
failure to deal with what is done after the criminals leave 
you. Criminal aliens are, in fact, being returned without 
prosecution in San Diego and all along the border. Gangs in our 
cities, including Los Angeles and other major cities, operate 
with known illegals who are not sought out for that purpose and 
simply allowed to be treated like any other ``American gang 
member,'' waiting until they've committed a violent felony 
before anything is done. Coyotes--I appreciate the fact that if 
a Coyote tries to run over a Border Patrol agent, Carol Lam, 
the U.S. Attorney in San Diego, will prosecute. But short of 
that, Coyotes are ignored and returned time after time after 
time and released.
    So my sympathy goes out to the four of you here because I 
believe that all of you are involved in trying to deal with the 
point of contact. But if we do not change what we do in the way 
of once you've apprehended or identified somebody and turning 
it into an effective prosecution and incarceration, to be 
honest--and I hope to hear more in your responses--I think that 
we are kidding ourselves that catch and release is simply not 
going to work. Catch and release says that if somebody doesn't 
do something violently, we are going to simply release them 
back and obviously allow them to continue to be operating 
illegally in this country.
    So I hope you will comment on that, and I thank the 
gentleman for yielding time.
    Mr. Coble. I thank the gentleman from California.
    We have also been joined by the distinguished gentleman 
from Florida, Mr. Feeney, and, as has been mentioned, Mr. 
Cuellar. Henry, good to have you here. Mr. Cuellar represents 
the Laredo area in his congressional district, and he does not 
sit as a Member of the Judiciary Committee, but it is good to 
have you here, Henry.
    Gentlemen, it is the practice of the Subcommittee to swear 
in all witnesses appearing before it, so if you would please 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Coble. Let the record show that each of the witnesses 
answered in the affirmative, and you may be seated.
    Ladies and gentlemen, we have four distinguished witnesses 
with us today. Our first witness is Chris Swecker, Assistant 
Director of the Criminal Investigative Division of the Federal 
Bureau of Investigation. Prior to this assignment, Mr. Swecker 
served in various positions, including special agent in charge 
of the Charlotte, North Carolina, Field Office and as inspector 
in the Inspection Division. He earned his bachelor's degree 
from Appalachian State University and his J.D. from Wake Forest 
School of Law.
    Mr. Swecker, I know Appalachian State very well and very 
favorably, and it's good to have a Mountaineer on the panel.
    Our second witness today, Mr. William Reid, the Acting 
Assistant Director of Investigations for the United States 
Immigration and Customs Enforcement. Previously, Mr. Reid 
served as the special agent in charge for ICE in Philadelphia, 
where he oversaw all criminal investigations of violations of 
immigration and customs laws in Pennsylvania, Delaware, and 
West Virginia. He holds an undergraduate degree from George 
Washington University and a law degree from George Mason 
University.
    Our third witness is Mr. Reynaldo Garza, Deputy Chief 
Patrol Agent of the Rio Grande Valley Sector of the U.S. 
Customs and Border Protection. Prior to this position, Mr. 
Garza served as Assistant Chief Patrol Agent and as Deputy 
Assistant Regional Director for the Central Region Headquarters 
in Dallas. Mr. Garza started his career with the Border Patrol 
at the Laredo station in 1975 and is a graduate of Texas A&M 
University at Laredo.
    Our final witness today is Mr. T.J. Bonner, President of 
the National Border Patrol Council, an organization 
representing about 10,000 U.S. Border Patrol employees. Mr. 
Bonner joined the Border Patrol in 1978 and was subsequently 
promoted to senior Border Patrol agent in 1987. As a 27-year 
veteran Border Patrol agent, Mr. Bonner has the experience to 
discuss with firsthand knowledge the major issues affecting 
immigration and border security policy today. He is a graduate 
of the Los Angeles Valley College.
    Gentlemen, we operate here on the 5-minute rule. Now, you 
will not be keel-hauled if you violate that rule, but when you 
see that red light appear before you on the panel in front of 
you, that is your warning. When the amber light appears, you 
will have 1 minute to go, so at that point if you could wrap 
up. We have examined your written testimony, and it will be re-
examined.
    I don't know, Bobby and John, of any issue that has come 
before us that is probably any more vital than what we are 
discussing today. And we are delighted to have you all with us. 
And, Mr. Swecker, incidentally, I have another meeting at 
11:30, so when I abruptly depart, if we are not through, don't 
think that's an indication of lack of interest in this subject, 
because it's not. But I will surrender the podium to the 
gentleman from Indiana at that time.
    Mr. Swecker, why don't you start us off.

   TESTIMONY OF CHRIS SWECKER, ASSISTANT DIRECTOR, CRIMINAL 
    INVESTIGATIVE DIVISION, FEDERAL BUREAU OF INVESTIGATION

    Mr. Swecker. Good morning, Chairman Coble and Chairman 
Hostettler and Ranking Members and Members of the Committee. We 
appreciate the opportunity to be here today. As you know, the 
bloody drama that is taking place in the South Texas border 
region in the area between Del Rio and Brownsville revolves 
around the Gulf Cartel drug-trafficking organization which 
dominates the region and commands smuggling operations along 
this stretch of the Southwest border, American Southwest. One 
of their enforcement groups, known as Los Zetas, bears primary 
responsibility for the violence. They have been fighting a turf 
war on behalf of the Gulf Cartel against rival drug-trafficking 
organizations. Because the Bureau focuses on large-scale 
criminal enterprise investigations which target the command and 
control structures of criminal groups, we think we are well 
positioned to help dismantle these trafficking organizations.
    One of the most significant ramifications of the unrest 
along the border has been a string of kidnappings involving 
U.S. citizens. Between May of 2004 and May of 2005, there have 
been 35 reported abductions of U.S. citizens in this region. 
Thirty-four occurred in Nuevo Laredo, Mexico, and involved U.S. 
citizens who had crossed the border. Twenty-three victims were 
released by their captors, nine victims remain missing, and two 
are confirmed dead. These numbers likely represent only a 
fraction of the actual occurrences, because many kidnappings of 
U.S. citizens go unreported. Two reasons exist for the 
underreporting of these abductions. First, victims and their 
families fear reprisals from the kidnappers; and, second, many 
of the victims are alleged to be involved in drug trafficking. 
The San Antonio Division of the FBI has 26 pending kidnapping 
cases. We have offered all available resources to assist 
Mexican law enforcement and have followed every domestic lead 
to locate these kidnapping victims.
    The Laredo Resident Agency received complaints from 
families of U.S. citizens Janet Martinez and Brenda Yadira 
Cisneros after they disappeared in September of 2004 in Nuevo 
Laredo. They remain missing. Investigation revealed that 
alleged members of Los Zetas kidnapped those two individuals. 
Mexican authorities have cooperated, and we're working and 
reviewing the evidence with them in this matter.
    The San Antonio Division of the FBI has over 50 OCDETF--
Organized Crime Drug Enforcement Task Force--investigations. 
These are joint investigations by definition. These target 
Mexican drug-trafficking organizations and related activities, 
including money laundering and gang violence. One of the 
investigations, Operation Cazadores, led to the indictment of 
Gulf Cartel leader Osiel Cardenas-Guillen. The investigation 
continues to pursue fugitive Gulf Cartel leaders indicted along 
with Guillen. Other pending investigations in Laredo, Houston, 
and Dallas focus on the leadership of these organizations.
    These Mexican drug cartels responsible for border violence 
have also cemented ties to street and prison gangs on the U.S. 
side. U.S. gangs retail drugs purchased from Mexican 
traffickers and often work as cartel surrogates or enforces on 
U.S. soil. Intelligence suggests Los Zetas have hired members 
of various gangs at different times, including the Mexican 
Mafia, Texas Syndicate, MS-13, and Hermanos Pistoleros Latinos, 
to further their criminal endeavors. The FBI is well equipped 
to deal with these groups. In conjunction with our law 
enforcement partners, we have established a National Gang 
Intelligence Center at FBI Headquarters. In addition, we have 
established task forces throughout the country to disrupt the 
gang activity. The San Antonio Division currently operates two 
Safe Street-Gang task forces addressing border violence in San 
Antonio and the Rio Grande Valley.
    The FBI continues to collect and share intelligence with 
other Federal, State, and local law enforcement agencies. 
Through Safe Streets task forces, we are collecting the 
intelligence and exploring the connections between the cartels 
and the gangs. We are participating in ``Operation Black 
Jack,'' an interagency endeavor led by ICE in conjunction with 
Mexican authorities. Through this program we have exchanged 
vital targeting intelligence on Los Zetas and the Gulf Cartel 
with our law enforcement colleagues, including ATF, DEA, ICE, 
and other appropriate elements of DHS. More broadly, at the 
core of our intelligence-gathering effort lies the FBI's 
McAllen Intelligence Center, the MIC. It is comprised of 
representatives from all of those agencies just mentioned. It 
is a central repository for border violence-related 
intelligence. It collects and analyzes criminal intelligence 
from all law enforcement agencies along the border. The center 
routinely shares that intelligence with Mexican officials and 
over 300 law enforcement agencies in South Texas. This includes 
materials involving Mexican officials, gang activities along 
the border, and drug trafficking.
    We have had several operational successes along the border. 
Some of the information that has been disseminated by the MIC 
has led to the raiding and search of two Zeta safe houses where 
44 kidnapping victims were rescued. We have met with our 
Mexican counterparts and discussed the location of several 
suspected Zeta-owned ranches. Based on information furnished by 
the FBI, Mexican authorities conducted surveillance of the 
locations and provided us with the intelligence.
    The FBI is taking proactive measures to assess and confront 
this heightened threat to public safety on both sides of the 
border, including participation in multiple bilateral, 
multiagency meetings and working groups to hone strategies to 
address the problem. Our intelligence provide windows into 
these organizations and their operations while our 
investigative efforts strive to disrupt and dismantle these 
criminal organizations and reduce violence in the regions.
    Paramilitary groups such as Los Zetas and Los Negros, which 
is the group that supports Chapo Guzman and what is known as 
the Federation, which is in opposition to the Gulf Cartel and 
has resulted in most of the violence down in that region, work 
for, these paramilitary groups work for the cartels as 
enforcers and are a serious threat to public safety on both 
sides of the border. We have documented kidnappings and forays 
that go across the border into the U.S. part, where in one case 
they have even attempted to kill--kidnap and kill a U.S. law 
enforcement officer, a Laredo police officer. They are well 
financed and well equipped. Their willingness to shoot and kill 
law enforcement officers on both sides of the border make these 
paramilitary groups among the most dangerous criminal 
enterprises in North America. Working with our local and 
Federal partners and the Government of Mexico, we continue to 
investigate these cartels and their paramilitary enforces, 
gathering evidence for prosecution where U.S. jurisdiction 
exists.
    Thank you for the opportunity to be here again. I am happy 
to answer any questions.
    [The prepared statement of Mr. Swecker follows:]

                  Prepared Statement of Chris Swecker

    Good afternoon Mr. Chairmen, Ranking Members, and Members of the 
Subcommittees. I appreciate this opportunity to discuss the FBI's 
efforts to combat recent violence along the South Texas border with 
Mexico. The region between the Texas cities of Del Rio and Brownsville 
has experienced high levels of drug-related turmoil since 2003. The 
focal point of much of this activity is Nuevo Laredo, Mexico, a border 
city situated directly across the Rio Grande River from Laredo, Texas. 
Drug traffickers have exacted an especially bloody toll in Nuevo Laredo 
and neighboring Mexican towns. Significant levels of violence and drug-
related criminal activity also plague Laredo. As you know, this bloody 
drama revolves around the Gulf Cartel drug trafficking organization 
which dominates the region and commands smuggling operations along this 
stretch of the American southwest. One of their enforcement groups, 
known as Los Zetas bears primary responsibility for the violence. They 
have been fighting a turf war on behalf of the Gulf Cartel against 
rival drug trafficking organizations. Because the Bureau focuses on 
large-scale enterprise investigations which target the command and 
control structures of criminal groups, we are well suited to help 
dismantle these trafficking organizations.

                              KIDNAPPINGS

    One of the most significant ramifications of the unrest along the 
border has been a string of kidnappings involving US citizens. Between 
May 2004 and May 2005, there have been 35 reported abductions of US 
citizens in this region.\1\ Thirty-four of these abductions occurred in 
Nuevo Laredo, Mexico, and involved US citizens who had crossed the 
border. Twenty-three victims were released by their captors, nine 
victims remain missing, and two are confirmed dead. These numbers 
likely represent only a fraction of the actual occurrences, because 
many kidnappings of US citizens go unreported. There are two reasons 
for the underreporting of abductions along the border. First, victims 
and their families fear reprisal from kidnappers. Second, since many 
victims are alleged to be involved in drug trafficking, they and their 
families are reluctant to cooperate with law enforcement. The San 
Antonio Division has 26 pending kidnapping cases. We have offered all 
available resources to assist Mexican law enforcement and have followed 
every domestic lead to locate the US kidnapping victims.
---------------------------------------------------------------------------
    \1\ Much larger numbers of Mexican citizens have been abducted 
along the border. From January to mid August 2005, 202 kidnappings 
occurred in the Mexican state of Tamaulipas, the Gulf Cartel's 
operational center which includes the cities of Matamoros, Nuevo 
Laredo, and Reynosa.
---------------------------------------------------------------------------
    The Laredo Resident Agency received complaints from the families of 
US citizens Janet Yvette Martinez and Brenda Yadira Cisneros after they 
disappeared on September 17, 2004 in Nuevo Laredo. They remain missing. 
Investigation revealed that alleged members of Los Zetas kidnapped 
Martinez and Cisneros. Mexican authorities have cooperated and we are 
working with them to review evidence in this case.
    The FBI has interviewed all cooperative kidnapping victims 
subsequent to their release. In cases where the victim remains missing, 
we have tried to obtain DNA samples to identify any human remains, if 
recovered. In the one case where the kidnapping occurred within the 
United States (Laredo), the FBI helped rescue the victim before he was 
transported to Mexico. This investigation is pending and the Assistant 
United States Attorneys in Laredo and Houston are pursuing charges.

                INVESTIGATIONS TARGETING CARTEL ACTIVITY

    The San Antonio Division has over 50 Organized Crime Drug 
Enforcement Task Force (OCDETF) investigations. These target Mexican 
drug trafficking organizations and related activities including money 
laundering and gang violence. One of the investigations, Operation 
Cazadores, led to the indictment of Gulf Cartel leader Osiel Cardenas-
Guillen. The investigation continues to pursue fugitive Gulf Cartel 
leaders indicted along with Cardenas-Guillen. Other pending 
investigations in Laredo, Houston, and Dallas, Texas focus on the 
leadership of organizations affiliated with Cardenas-Guillen.

    GANG ACTIVITY
    Mexican drug cartels responsible for recent border violence have 
also cemented ties to street and prison gangs on the US side. US gangs 
retail drugs purchased from Mexican traffickers and often work as 
cartel surrogates or enforcers on US soil. Intelligence suggests Los 
Zetas have hired members of various gangs at different times including 
the Mexican Mafia, Texas Syndicate, MS-13, and Hermanos Pistoleros 
Latinos to further their criminal endeavors. The FBI is well-equipped 
to deal with these groups. The Bureau, in conjunction with our law 
enforcement partners has established a National Gang Intelligence 
Center at FBI Headquarters. In addition, we have established task 
forces throughout the country to disrupt gang activity. The FBI's San 
Antonio Division currently operates two Safe Street/Gang task forces 
addressing border violence in San Antonio, and the Rio Grand Valley. 
These FBI-led task forces include FBI Special Agents, other Federal 
Agents and local law enforcement officers.

        <bullet>  The San Antonio Safe Streets/Gang Task Force is 
        comprised of nine FBI Special Agents and 13 task force 
        officers.

        <bullet>  The Rio Grande Valley Safe Streets/Gang Task Force is 
        comprised of eight FBI Special Agents and five task force 
        officers.

                         INTELLIGENCE GATHERING

    The FBI continues to collect and share intelligence with other 
federal, state, and local law enforcement agencies. Through Safe 
Streets task forces, we are collecting intelligence and exploring the 
connections between Mexican cartels and gangs along the border. We are 
participating in Operation Blackjack, an interagency endeavor in 
conjunction with Mexican authorities. Through this program we have 
exchanged vital targeting intelligence on Los Zetas and the Gulf Cartel 
with our law enforcement colleagues including DEA, ATF, and appropriate 
elements of DHS. More broadly, at the core of our intelligence-
gathering effort lies the FBI's McAllen Intelligence Center. The MIC, 
as it is commonly known, is comprised of representatives from various 
local, state, and federal agencies in Texas. This is the central 
repository for border violence-related intelligence. The MIC collects 
and analyzes criminal intelligence from state, local, and federal 
investigations along the Texas/Mexico border. The center routinely 
shares intelligence with Mexican officials and over 300 law enforcement 
agencies in South Texas. This includes material regarding corrupt 
Mexican officials, gang activity along the border, and drug 
trafficking. The McAllen Intelligence Center also maintains a 
comprehensive database of Zetas, their associates, and members of both 
the Gulf Cartel and its rivals.
    We have had several operational successes based on intelligence we 
have gathered and passed on to Mexican officials. Some of the 
information the FBI provided to Mexican officials helped Mexican 
federal and military authorities locate two Zeta safe houses in Nuevo 
Laredo in June 2005 where they rescued 44 kidnapping victims. FBI 
officials recently met with their Mexican counterparts and discussed 
the location of several suspected Zeta-owned ranches. Based on 
information furnished by the FBI, Mexican authorities conducted 
surveillance of the locations and provided us with the resulting 
intelligence.
    Eight FBI Special Agents in our Resolution 6 program cover five 
major cities in Mexico working in DEA offices which affords complete 
coordination with DEA resources and investigations. These agents 
develop intelligence regarding the activities of Mexican criminal 
enterprises to support US investigations. All of this work is 
coordinated with representatives from key DEA offices and Mexican 
officials. Recently Mexican authorities used FBI Resolution 6 
intelligence to conduct several drug seizures including seven tons of 
marijuana attributed to Joaquin Guzman-Loera, arch rival of the Gulf 
Cartel. In September 2005, FBI Headquarters deployed analytical 
resources to Monterrey, Mexico, to provide case support.
    The FBI continues to aggressively pursue the major organizations 
and violent criminals responsible for lawlessness along the border. The 
FBI along with our colleagues at the Department of Homeland Security 
and Department of State are working with the Mexican Attorney General's 
Office and the US Consulate in Monterrey to identify Los Zetas members 
and their associates in order to revoke their immigration documents. 
This measure will make it more difficult for them to enter and operate 
in the United States. We are also cooperating with other US law 
enforcement agencies in investigations targeting Los Zetas, the Gulf 
Cartel and their enemies.
    On October 13, 2005 the Attorney General announced the creation of 
an ATF-led Violent Crime Impact Team (VCIT) in Laredo, Texas. In 
combination with the VCITs already established in Los Angeles, Tucson, 
Albuquerque and Houston, the Laredo VCIT will address cross-border 
violence. The VCIT model combines local police resources with ATF 
investigative and technical expertise and the resources of ICE, CBP, 
and other federal law enforcement partners to reduce the violence that 
plagues our most crime-ridden communities. We look forward to working 
with our colleagues from ATF in combating gang violence and other 
violent crime along the border with Mexico.
    The FBI is taking pro-active measures to assess and confront this 
heightened threat to public safety on both sides of the US/Mexico 
border, including participation in multiple bi-lateral multi-agency 
meetings and working groups to hone strategies to address the problem. 
Our intelligence gathering activities provide windows into these 
organizations and their operations while our investigative efforts 
strive to disrupt and dismantle these criminal organizations and reduce 
the violence in the region.
    Para-military groups such as the Zetas, Los Negros, Los Numeros, 
and others who work for Mexican drug cartels as enforcers are a serious 
threat to public safety on both sides of the entire U.S./Mexico border. 
They are well financed and well equipped. Their willingness to shoot 
and kill law enforcement officers on both sides of the border make 
these para-military groups among the most dangerous criminal 
enterprises in North America. Working with our federal, state, and 
local partners, and the Government of Mexico, the FBI continues to 
investigate these cartels and their para-military enforcers, gathering 
evidence for prosecution where U.S. jurisdiction exists.
    Thank you again for the opportunity to be here today. I would be 
happy to answer any questions.

    Mr. Coble. I thank you, Mr. Swecker.
    In the sense of fairness, Mr. Swecker had 6 minutes, so you 
all will be allowed 6 minutes as well. Mr. Reid.

TESTIMONY OF WILLIAM REID, ACTING ASSISTANT DIRECTOR, OFFICE OF 
INVESTIGATIONS, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Reid. Good morning, Chairmen Coble and Hostettler, 
Ranking Member Scott, and Subcommittee Members. Thank you for 
the opportunity to speak with you today about U.S. Immigration 
and Customs Enforcement and our ongoing efforts to improve the 
security situation along the Mexican/United States border, 
specifically in the Laredo and Nuevo Laredo areas. ICE is 
working closely with a number of agencies and organizations in 
both the United States and Mexico regarding ``Operation Black 
Jack,'' an ICE-coordinated initiative. ICE brings to bear all 
of its law enforcement and investigative powers in ``Operation 
Black Jack'' to make the border safer by attacking the 
smuggling organizations that operate on both sides of the 
border.
    ICE's mission is to protect the American people by using 
our law enforcement and investigative authorities to prevent 
acts of terrorism by targeting the people, money, and materials 
that support terrorist and criminal activity. In Laredo and 
elsewhere, that means targeting and dismantling criminal 
networks, syndicates, and organizations that seek to exploit 
our borders for criminal purposes. While we agree that the 
criminal activity we have seen in Laredo and elsewhere along 
the border in itself demands a strong law enforcement response, 
there is an additional, compelling strategic reason why we must 
continue to respond forcefully. Intelligence reporting shows 
that terrorists have indicated an interest and a desire to 
exploit vulnerabilities along the border as a means of entering 
the United States. By aggressively targeting and defeating the 
criminal networks--specifically, their leadership--that exploit 
our borders, we simultaneously make it more difficult for 
potential terrorists to insert themselves, their supporters, or 
their weapons into this country through traditional human- or 
drug-smuggling networks and routes.
    Our Laredo office is staffed with 72 criminal investigators 
and 26 personnel from the Office of Detention and Removal. In 
addition, there are agents and officers from U.S. Customs and 
Border Protection. CBP is the primary, front-line interdictors 
of aliens and drugs seized at and between the ports of entry. 
While CBP focuses on the physical border, ICE targets and takes 
down the organizational muscle and the leadership that drives 
and sustains this flow of illegal activity.
    The Southwest border situation: As we assess the smuggling 
threats, there is no location in the United States that has 
greater operational tempo and varied smuggling threat than the 
Southwest border of the United States. While no one should 
minimize its significance, violence between smuggling 
organizations is not a new phenomenon along the Southwest 
border. Competition between smuggling organizations for control 
of smuggling routes has been a source of violence on both sides 
of the border for generations. However, smuggling organizations 
also know that violence brings unwanted attention from law 
enforcement, particularly when innocent victims get caught in 
the crossfire.
    While violence has traditionally been associated with 
cross-border violent activity, the current level of violence in 
the Nuevo Laredo area dramatically exceeds historical norms. 
The violence in the Nuevo Laredo area is caused by intense 
competition between the remnants of the Gulf Cartel and the 
members of the Federation that is attempting to take control of 
the important plaza. Each of these competing cartels has 
established relationships with very violent criminal gangs that 
act as enforcers and sow violence in support of their cartels. 
The Gulf Cartel is supported by Los Zetas and other criminal 
gangs, the Texas Syndicate, and Hermandad De Pistoleros 
Latinos. Los Negros, including individual members of the 
Mexican Mafia and MS-13, support the Federation. The 
competition between these two cartels and the criminal gangs 
that support them provides the fuel for the increase in 
violence that we have seen in the last few years.
    While ICE focuses on the violence occurring in Nuevo Laredo 
and Laredo, we also remain committed to targeting the people 
and organizations who support, organize, and profit from 
sophisticated human-smuggling operations, a number of which are 
responsible for tragic deaths of many who perish while being 
smuggled into the United States. I brought a chart with me 
today--which would be my first slide--that depicts the deaths--
the concentration of deaths in the Hebbronville, Texas, area in 
the last year and that we are actively investigating under 
``Operation Black Jack,'' and this slide is presently visible.
    ``Operation Black Jack.'' In response to the smuggling 
organizations and networks responsible for this violence, in 
2005, ICE and our Federal law enforcement, State, and local law 
enforcement agencies created ``Operation Black Jack.'' 
``Operation Black Jack'' has two strategic goals: to gather 
information on criminal activity in this area and to share it 
among the Federal agencies--Federal, State, and local agencies 
and make the tie between that intelligence in the criminal 
activity and the cartels, and attack the human- and drug-
smuggling organizations that provide the fuel for the violence. 
Through ``Operation Black Jack,'' ICE works with the Mexican 
law enforcement authorities to target organized criminal 
activity, drug smuggling, money laundering, alien smuggling, 
arms and human trafficking, public corruption activities that 
result in the border violence on both sides.
    An important first step in the establishment of ``Operation 
Black Jack'' was the development of an agreed-upon threat 
assessment that identifies the most violent and prolific human 
and drug-smuggling organizations and cells. We prioritized a 
list of targets for dismantling these organizations. The threat 
assessment and the prioritized list was prepared by a 
collocated intelligence unit, the Laredo Intelligence Center, 
which is a HIDTA-funded initiative, with participation from 
ICE, CBP, the Drug Enforcement Administration, the Texas 
National Guard, the Union Pacific Railroad Police, and the 
Laredo Police Department. This unit has a well-established 
relationship with the Federal Bureau of Investigation's McAllen 
Intelligence Center, the El Paso Intelligence Center, and the 
U.S. Border Patrol intelligence unit in Laredo.
    The threat assessment and the target list of organizations 
were provided to two blended enforcement groups: one that 
focuses on the investigation of drug and money-laundering 
groups identified in the assessment; and another is attacking 
the most violent human-smuggling and human-trafficking 
organizations.
    A couple of successes from ``Operation Black Jack'' that 
I'd like to highlight.
    On October 11, 2005, U.S. Border Patrol agents assigned to 
Black Jack received information about a residence where a 
homicide suspect might be located. The information was shared 
with the Laredo Police Department who investigated. The next 
day the Laredo Police Department contacted ``Operation Black 
Jack'' when the investigation revealed that the homicide 
suspect was not there, but $342,880 in currency and 10 
automatic weapons had been discovered. ICE agents, Border 
Patrol agents, and ATF agents, all assigned to Black Jack, 
responded. The investigation revealed that the occupant at the 
residence, an illegal alien, was guarding the weapons and 
currency prior to export from the United States into Mexico or 
smuggling into Mexico. The individual worked for a cell, the 
Joaquin ``Chapo'' Guzman organization. ICE agents seized the 
money, ATF agents seized the assault rifles, and arrested the 
individual for alien in possession of a firearm. That would be 
my second photograph, the currency and the automatic weapons.
    And then the next example I would like to highlight----
    Mr. Coble. Mr. Reid, if you could wrap up. Your time is 
about up.
    Mr. Reid. Okay. The second example was information that was 
received about individuals operating away from Laredo in a 
suburb of Rockwall, Texas. The agents went up and did a search 
of the residence and arrested a couple of individuals for entry 
without inspection. One was a subject of a 2003 murder in 
Laredo, one was a fugitive from the United States Marshals 
Service.
    Since its inception, Black Jack has seized more than $1 
million, 300 pounds of marijuana, 300 pounds of cocaine, and 
assorted weapons.
    Operation Black is truly a collaborative operation with 
CBP, ATF, DEA, the FBI, the Laredo Police Department, the Texas 
Department of Public Safety, the Marshals Service, the Texas 
National Guard, and support from the United States Attorney's 
Office. It is a model that we would like to replicate--that we 
intend to replicate in other parts of the United States on the 
Southwest border because of the effectiveness that we have seen 
in this operation.
    Thank you very much, and I would be glad to take questions.
    [The prepared statement of Mr. Reid follows:]

                   Prepared Statement of William Reid

    CHAIRMEN COBLE AND HOSTETTLER, RANKING MEMBERS SCOTT AND JACKSON 
LEE, AND MEMBERS OF THE SUBCOMMITTEES: Thank you for the opportunity to 
speak with you today about U.S. Immigration and Customs Enforcement 
(ICE) and our ongoing efforts to improve the security situation along 
the Mexican/United States border, specifically in the Laredo and Nuevo 
Laredo areas. ICE is working closely with a number of agencies and 
organizations in both the United States and Mexico regarding Operation 
Black Jack, an ICE-coordinated initiative. ICE brings to bear all of 
its law enforcement and investigative powers in Operation Black Jack to 
make the border safer by attacking the smuggling organizations that 
operate on both sides of the border.
    As the Department of Homeland Security's (DHS) largest 
investigative agency and with critical responsibilities both along our 
borders and within the interior, ICE can provide Congress with a 
comprehensive assessment of the border-related threats to the American 
people, including those we see today in Laredo. Our assessment is 
derived from our presence, operations, intelligence collection and 
investigations at the Ports of Entry, between them and throughout the 
Nation's interior.
    ICE's mission is to protect the American people by using our law 
enforcement and investigative authorities to prevent acts of terrorism 
by targeting the people, money and materials that support terrorist and 
criminal activities. In Laredo and elsewhere, that means targeting and 
dismantling criminal networks, syndicates and organizations that seek 
to exploit our borders for criminal purposes. While we agree that the 
criminal activity we have seen in the Laredo area and elsewhere along 
the border, in itself, demands a strong law enforcement response, there 
is an additional, compelling strategic reason why we must continue to 
respond forcefully. Intelligence reporting shows that terrorists have 
expressed an interest and a desire to exploit the existing 
vulnerabilities in our border security to enter or attack the United 
States. By aggressively targeting and defeating the criminal networks--
specifically, their leadership--that exploit our borders, we 
simultaneously make it more difficult for potential terrorists to 
insert themselves, their supporters or their weapons into this country 
through traditional human or drug smuggling networks and routes.
    ICE has the combined authorities for enforcing both customs and 
immigration laws, which makes our approach to fighting organized 
criminal activity and border violence very effective. By combining 
immigration enforcement authorities with expertise in financial 
investigations, we have an additional tool to hit these criminal 
organizations where it hurts--by going after their money. This 
combination of authorities is a powerful tool because suspects 
frequently commit overlapping or related Title 8 and Title 19 
violations. ICE has tools in its toolbox with which we can pursue 
alleged violators.
    That is what we are doing in Laredo.
    There we have 72 criminal investigators and 26 personnel from our 
Office of Detention and Removal. In addition, there are agents and 
officers from U.S. Customs and Border Protection. CBP is the primary, 
front-line interdictors of aliens and drugs seized at and between the 
Ports of Entry. While CBP focuses on the physical border, ICE targets 
and takes down the organizational muscle and leadership that drives and 
sustains this flow of illegal activity.

                THE SOUTHWEST BORDER SECURITY SITUATION

    As we assess the smuggling threats, there is no location with a 
greater operational tempo and varied smuggling threat than the 
Southwest border of the United States. While no one should minimize its 
significance, violence between smuggling organizations is not a new 
phenomenon along the Southwest border. Competition between smuggling 
organizations for control of smuggling routes has been a source of 
violence on both sides of the border for generations. However, 
smuggling organizations also know that violence brings unwanted 
attention from law enforcement, particularly when innocent victims get 
caught in the crossfire.
    While violence has traditionally been associated with cross-border 
criminal activity, the current level of violence in the Nuevo Laredo 
area dramatically exceeds historical norms. The violence in the Nuevo 
Laredo area is caused by intense competition between the remnants of 
the Gulf Cartel, which continues to be supervised by Osiel Cardenas 
Guillen despite his arrest in 2003, and Joaquin ``Chapo'' Guzman Loera 
and Arturo Beltran Leyva, who are members of the ``Federation'' that is 
attempting to take control of this important ``Plaza.'' Each of these 
competing cartels has established relationships with very violent 
criminal gangs that act as enforcers and sow violence in support of 
their cartels. The Gulf Cartel is supported by Los Zetas and two other 
criminal gangs, the Texas Syndicate and Hermandad De Pistoleros Latinos 
(The Brotherhood of Latin Pistoleros). Los Negros, including individual 
members of the Mexican Mafia and Mara Salvatrucha (``MS-13'') support 
the Federation. The competition between these two cartels and the 
criminal gangs that support them provides the fuel for the increase in 
violence that we have seen in the last several years.
    The phrase ``Plaza'' is used to describe the corridor that extends 
from Southern Mexico up to the Nuevo Laredo area. Control of this 
corridor translates into control of all smuggling, both of humans and 
drugs, in the area and any organization that wants to smuggle in this 
area has to pay a tax to the cartel that controls the ``Plaza.'' This 
area is also important because of the infrastructure on the U.S. side 
of the border. First, the Laredo Port of Entry is the busiest land Port 
of Entry on the Southwest border, handling approximately 6,000 
commercial vehicles a day. U.S. Interstate Highway 35 starts in Laredo, 
Texas and provides ready access to both San Antonio and Dallas, where 
both drugs and aliens can be staged prior to movement to other parts of 
the United States.
    However, there are aspects of the violence we are seeing that is 
distinguished from other periods of instability between competing 
cartels. For instance, the murder of public officials, particularly the 
public execution of the Chief of Police of Nuevo Laredo within hours of 
his appointment, is a sign of the lengths to which the cartels are 
going to attack anyone who seeks to thwart their efforts to gain 
control of the ``Plaza.''
    As a point of reference, so far in 2005 the Laredo Police 
Department has responded to 20 homicides, of which 13 have been 
identified as drug related. Reports indicate there have been 157 
reported homicides in Nuevo Laredo in 2005. Also in 2005, the Laredo 
Police Department has received 10 reports of kidnappings, but 6 of 
these victims have been recovered or returned. Reports from Nuevo 
Laredo indicate that there have been 63 reported kidnappings this year. 
By comparison, in 2004 there were 15 homicides reported in Laredo, 
Texas, and 68 in Nuevo Laredo. In 2004 there were 9 kidnappings 
reported in Laredo, Texas, and 46 reported in Nuevo Laredo.
    While ICE focuses on the violence occurring in Nuevo Laredo and 
Laredo, we also are targeting the people and organizations who support, 
organize and profit from sophisticated human smuggling operations, a 
number of which are responsible for the tragic deaths of many who 
perish while being smuggled into the United States from Mexico. For 
example, in fiscal 2005, 49 aliens died while seeking entry. The 
previous year, 22 died. Because of the willingness of smugglers to 
subject aliens to the extreme dangers of walking for days in the vast 
areas between the Ports of Entry, more and more aliens are dying a 
horrible and painful death due to dehydration and exhaustion. These 
smugglers are also paying the cartels that control the ``Plaza'' for 
the privilege of smuggling in this area.
    The Department has been working closely with its counterparts from 
the Government of Mexico in several areas, including securing our 
common border, facilitating the safe, flow of people and goods across 
the border, and ramping up law enforcement efforts on both sides of the 
border. ICE, in collaboration with the Government of Mexico, has 
established the first Binational Alien Protection Unit (BAPU) to 
address human alien smuggling matters within the San Antonio region. 
BAPU has developed, received and analyzed information that has 
prevented violators, criminals and contraband from penetrating the 
borders of the United States.
    It is important to note that when the violence wrought by these two 
warring cartels spreads into the United States, state and local law 
enforcement are the first responders. This is why the sharing of 
intelligence between ICE, U.S. Customs and Border Protection (CBP), our 
other federal partners at Operation Black Jack and the State and local 
officers who are the first to respond to these incidents is so 
important. It provides a mechanism to enhance the free flow of 
information between the federal agencies responsible for Border 
Security and the agencies that respond to crimes driven by border 
related violence. We also coordinate information sharing with various 
federal agencies in Mexico; this ensures bilateral mechanisms are 
closely coordinated.

                          OPERATION BLACK JACK

    In response to the smuggling organizations and networks responsible 
for this violence, in July 2005, ICE and our partners in Federal, state 
and local law enforcement created Operation Black Jack. Operation Black 
Jack has two strategic goals. 1) Increase the flow of information 
between the federal agencies that are responsible for or contribute to 
border security and State and local law enforcement so that crimes of 
violence can be tied to the cartels that are responsible. 2) Attack the 
human and drug smuggling organizations that provide the ``fuel'' for 
this violence. Through Operation Black Jack, ICE works with Mexican law 
enforcement to target organized criminal activity; drug smuggling, 
money laundering, alien smuggling, arms and human trafficking, public 
corruption activities and the resulting border violence. Based upon the 
real-time exchange of tactical law enforcement information between the 
United States and Mexico, Operation Black Jack has successfully 
targeted numerous individuals involved in the drug cartel-related 
violence in the Nuevo-Laredo region.
    An important first step in the establishment of Operation Black 
Jack was the development of an agreed-upon threat assessment that 
identifies the most violent and prolific human and drug smuggling 
organizations and cells. We then prioritized this list of targets for 
dismantling. The threat assessment and the prioritized target list was 
prepared by a co-located intelligence unit, the Laredo Intelligence 
Center (a HIDTA funded initiative), with participation from ICE, CBP, 
the Drug Enforcement Administration (DEA), the Texas National Guard, 
the Union Pacific Railroad Police and the Laredo Police Department. The 
unit also has a well-established relationship with the Federal Bureau 
of Investigation (FBI)'s McAllen Intelligence Center, the El Paso 
Intelligence Center and the U.S. Border Patrol intelligence unit in 
Laredo.
    The threat assessment and the target list of organizations were 
provided to two blended enforcement groups--one that is focused on 
investigating the drug and money laundering groups identified in the 
assessment; another that is focused on attacking the most violent human 
smuggling and trafficking organizations.

                      RECENT OPERATIONAL SUCCESSES

    I want to describe for the Subcommittees a few of the recent 
enforcement successes that highlight the collaborative working 
environment of Operation Black Jack and the contributions we are making 
to disrupt and dismantle the organizations that cause the violence on 
both sides of the border.
    On October 11, 2005, U.S. Border Patrol agents assigned to 
Operation Black Jack received information about a residence where a 
homicide suspect might be located. The information was shared with the 
Laredo Police Department who investigated. The next day the Laredo 
Police Department contacted Operation Black Jack when the investigation 
revealed that the homicide suspect was not located there, but $342,880 
in currency and 10 automatic weapons had been discovered. ICE agents, 
Border Patrol agents and agents from ATF, all assigned to Operation 
Black Jack, responded to the scene. The investigation has revealed that 
the occupant at the residence, an illegal alien, was guarding the 
weapons and currency prior to them being smuggled to Mexico and was 
working for a cell that operates on behalf of Joaquin ``Chapo'' Guzman. 
ICE agents seized the money as drug proceeds while ATF agents seized 
the assault rifles and arrested the subject for being an alien in 
possession of firearms. This kind of combined enforcement operation in 
which each agency brings its expertise and experience to the table is 
exactly how Operation Black Jack is operating daily.
    On October 27, 2005, Operation Black Jack team members, including 
the Laredo Police Department, traveled to Rockwall, Texas, after 
receiving information that two subjects wanted for murder in Laredo 
lived there. A search of the residence resulted in the arrest of the 
two subjects wanted for drug related murders that occurred as far back 
as 2003. During the warrant execution at the residence, agents also 
encountered four additional subjects that were arrested for various 
crimes. Two subjects were arrested by ICE for Entry Without Inspection. 
One was also a person of interest in a 2003 murder in Laredo. One 
subject was a fugitive from the U.S. Marshals Service. Another, the 
occupant of the residence, was arrested for possession of cocaine and 
marijuana. The execution of the search warrant also resulted in the 
seizure by the Rockwall Police Department of $132,991, a handgun, money 
counter, scales and other evidence of drug distribution. These arrests 
illustrate the value of pursuing information regarding subjects wanted 
for crimes of violence, even when it means traveling outside Laredo. It 
also demonstrates how federal resources and authorities can contribute 
to taking violent individuals off the street.
    Since its inception in July 2005, Operation Black Jack has resulted 
in the seizure of more than $1 million, 300 pounds of marijuana, 300 
pounds of cocaine, 18 assault rifles, 2 handguns, 3 vehicles and the 
arrest of 20 subjects.
    In summary, Operation Black is a collaborative project that 
wouldn't be possible without the active involvement of CBP, ATF, the 
DEA, the FBI, the Laredo Police Department, the Texas Department of 
Public Safety, the U.S. Marshals Service, the Texas National Guard and 
the United States Attorney's Office, which has devoted resources to 
prosecute Operation Black Jack cases.
    Chairmen Coble and Hostettler, this concludes my statement. I will 
be pleased to answer any questions that you or Members of the Committee 
may have.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. I thank the gentleman.
    We have been joined by the distinguished gentleman from 
Texas, Mr. Lamar Smith, and the distinguished gentleman from 
Iowa, Mr. King.
    Mr. Garza.

STATEMENT OF REYNALDO GARZA, DEPUTY CHIEF PATROL AGENT, OFFICE 
 OF BORDER PATROL, RIO GRANDE VALLEY SECTOR, U.S. CUSTOMS AND 
    BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Garza. Good morning, Chairman Coble, Chairman 
Hostettler, Ranking Members, and distinguished Committee 
Members. I am honored to appear on behalf of the Office of 
Border Patrol as we share your interest in the safety of our 
U.S. citizens, as well as our dedicated agents that serve along 
the border. I am pleased to discuss the successes and 
challenges in reducing violence along the U.S.-Mexico border 
and how they affect border security, as demonstrated by the 
operations and law enforcement initiatives of the Office of 
Border Patrol, a component of the U.S. Customs and Border 
Protection. I would like to begin by giving you a brief 
overview of our agency and mission.
    CBP, as the guardian of the Nation's borders, safeguards 
the homeland--foremost by protecting the American public 
against terrorists and the instruments of terrorism, while at 
the same time enforcing the laws of the United States and 
fostering the Nation's economic security through lawful trade 
and travel. Contributing to all this is the Border Patrol's 
time-honored duty of interdicting illegal aliens and drugs and 
those who attempt to smuggle them across our borders between 
the ports of entry. We are concerned that terrorists may 
conduct attacks and violent criminals will prey on our homeland 
by exploiting smuggling routes while illegally entering the 
United States. Reducing illegal migration across our borders 
may help in disrupting possible attempts by terrorists or 
violent criminals to enter our country.
    CBP Border Patrol's National Strategy has made a 
centralized chain of command a priority and has increased the 
effectiveness of our agents by using intelligence-driven 
operations to deploy our resources. The strategy recognizes 
that border awareness and cooperation with our law enforcement 
partners is critical in disseminating information and tactical 
intelligence that assists in the quick and nimble response 
which is essential to mission success.
    The Office of Border Patrol is the first line of defense in 
DHS' multi-agency effort to dismantle the violent smuggling 
organizations that threaten American quality of life, 
especially in South Texas. This line of defense comes at a 
price: Border Patrol agents were assaulted on 548 occasions in 
fiscal year 2005, 513 in fiscal year 2004, a drastic increase 
from 200 assaults in fiscal year 2003. If they assault law 
enforcement officers, we know they will assault the citizens of 
our country.
    Recognizing that we cannot control our borders by merely 
enforcing at the immediate border, our strategy incorporates a 
``defense in depth'' component, including transportation checks 
on the U.S. side of the physical border. These checkpoints are 
critical to our patrol efforts, for they deny major routes of 
egress from the borders to smugglers intent on delivering 
people, drugs, and other contraband into the interior of the 
United States. Permanent checkpoints allow CBP Border Patrol to 
establish an important second layer of defense and help deter 
illegal entries through improved enforcement. This tiered 
enforcement approach in the State of Texas contributed to the 
seizure of over 252,000 pounds of marijuana and 9,100 pounds of 
cocaine in South Texas. The 9,100 pounds represents 73 percent 
of the cocaine seized nationwide by the Office of Border 
Patrol.
    Another example is the partnership between DHS and the 
Department of Justice to develop the IDENT/IAFIS integrated 
workstation for identity checks. With immediate access to IAFIS 
nationwide, Border Patrol agents have identified thousands of 
egregious offenders in fiscal year 2005, including 444 homicide 
suspects, 598 sex crime suspects, 149 kidnapping suspects, and 
11,844 suspects involved in dangerous drugs or trafficking, 
which otherwise may have gone undetected. The 31,000 major 
crime hits and over 120,000 IAFIS hits through fiscal year 2005 
has demonstrated significant steps toward improving national 
security and greatly enhancing our ability to secure our 
Nation's borders.
    CBP Border Patrol's objective is nothing less than a border 
under operational control. We recognize the challenges that lie 
ahead and the need for a comprehensive enforcement approach. 
Our national strategy gives us the means by which to achieve 
our ambitious goal. We face these challenges every day with 
vigilance, dedication to service, and integrity as we work to 
strengthen national security and protect America and its 
citizens. I would like to thank you for the opportunity to 
present this testimony today and for your support of CBP and 
DHS. I would be pleased to respond to any questions you may 
have at this time.
    [The prepared statement of Mr. Garza follows:]

                  Prepared Statement of Reynaldo Garza

    CHAIRMAN COBLE, CHAIRMAN HOSTETTLER, RANKING MEMBERS SCOTT AND 
JACKSON LEE, AND DISTINGUISHED COMMITTEE MEMBERS: My name is Reynaldo 
Garza, and I am the Deputy Chief Patrol Agent of the Border Patrol's 
Rio Grande Valley Sector. I am honored to appear on behalf of the 
Office of Border Patrol as we share your interest in the safety of U.S. 
citizens, as well as our dedicated agents that serve along the border. 
I am pleased to discuss the successes and challenges in reducing 
violence along the U.S./Mexico border and how they affect border 
security, as demonstrated by the operations and law enforcement 
initiatives of the Office of Border Patrol, a component of U.S. Customs 
and Border Protection (CBP). I would like to begin by giving you a 
brief overview of our agency and mission.
    CBP, as the guardian of the Nation's borders, safeguards the 
homeland--foremost, by protecting the American public against 
terrorists and the instruments of terrorism; while at the same time, 
enforcing the laws of the United States and fostering the Nation's 
economic security through lawful travel and trade. Contributing to all 
this is the Border Patrol's time-honored duty of interdicting illegal 
aliens and drugs and those who attempt to smuggle them across our 
borders between the Ports of Entry. We are concerned that terrorists 
and violent criminals may exploit smuggling routes to illegally enter 
the United States. Reducing illegal migration across our borders will 
help mitigate the danger of possible attempts by terrorists or violent 
criminals to enter our country.
    As the Secretary noted in his June 9 statement before the 
Government Reform Committee, DHS has a cross-cutting initiative to 
protect the southwest border. It encompasses the efforts of several DHS 
agencies, and each agency plays an integral role. The operations 
themselves involve patrolling the border, generating information, and 
taking enforcement actions. The uniqueness of the Department of 
Homeland Security is that it has the capability within one department 
to do all of these things.
    With regard to CBP, the Border Patrol's National Strategy has made 
a centralized chain of command a priority and has increased the 
effectiveness of our agents by using intelligence-driven operations to 
deploy our resources. The Strategy recognizes that border awareness and 
cooperation with our law enforcement partners is critical. Partnerships 
with Immigration and Customs Enforcement (ICE), Department of the 
Interior, DEA, FBI, Department of Transportation, as well as other 
interagency partners, state, local, and tribal law enforcement agencies 
and state Homeland Security offices play a vital role in having and 
disseminating information and tactical intelligence that assists in a 
quick and nimble response, which is essential to mission success.
    Operation Black Jack is an example of DHS efforts in the state of 
Texas. Operation Black Jack has two strategic goals. 1) Increase the 
flow of information between the federal agencies that are responsible 
for or contribute to border security and State and local law 
enforcement so that crimes of violence can be tied to the cartels that 
are responsible. 2) Attack the human and drug smuggling organizations 
that provide the ``fuel'' for this violence. Since July 2005, Operation 
Black Jack has resulted in the seizure of over 1 million dollars, 18 
assault rifles, 2 handguns, and the arrest of 20 subjects.
    The Office of Border Patrol (OBP) is the first line of defense in 
DHS' multi-agency effort to dismantle the violent smuggling 
organizations that threaten American quality of life, especially in 
South Texas. This line of defense comes at a price: Border Patrol 
Agents were assaulted on 548 occasions in FY 2005 and 523 in FY 2004, a 
drastic increase from 220 in FY 2003.
    The Office of Border Patrol's Laredo Sector has been recognized as 
an expert in South Texas in combating alien gangs. Earlier this year, 
representatives from OBP in Laredo were invited to conduct gang 
presentations in San Antonio, Beeville, El Paso, Houston, and Victoria. 
We are pleased to convey that Border Patrol trained over 500 law 
enforcement and correctional personnel, as well as offered 
presentations on gangs to numerous local organizations.
    To highlight our gang enforcement activity, the Office of Border 
Patrol has arrested 132 Mara Salvatrucha (MS-13) gang members. One 
hundred of these arrests occurred in South Texas. However, MS-13 
members have been arrested on all borders, including Northern and 
Coastal, which reflects the national scope of this problem.
    The Laredo Sector Prosecutions Program participated in a pilot 
program for electronic filing of criminal complaints and prosecuted 
8,447 individuals, including 2,151 felony complaints. The Del Rio 
Sector has instituted a Fugitive Removal Program that carries out 
operations by assigning Border Patrol agents to the Mexican Liaison 
Unit (MLU) to work with the U.S. Marshal Service's Mexican 
Investigative Liaison (MIL) Program. Law enforcement authorities 
approached Del Rio Sector MLU Agents from Coahuila, Mexico, concerning 
the possibility of repatriating Mexican citizens who had committed 
serious crimes in Mexico and who were seeking refuge in the United 
States. We have experienced great success in working this reciprocal 
program with Mexico in the MIL. In 2005, eight fugitives, including 
four murder suspects and one kidnapper, were turned over to the U.S. 
Marshal Service by the Mexican authorities. The kidnap victim was 
safely returned. All of this was accomplished as a direct result of 
coordinated efforts provided by the Del Rio Sector MLU in the MIL.
    Recognizing that we cannot control our borders by merely enforcing 
at the immediate border, our strategy incorporates a ``defense in 
depth'' component, including transportation checks on the U.S. side of 
the physical border. These checkpoints are critical to our patrol 
efforts, for they deny major routes of egress from the borders to 
smugglers intent on delivering people, drugs, and other contraband into 
the interior of the United States. Permanent checkpoints allow CBP 
Border Patrol to establish an important second layer of defense and 
help deter illegal entries through improved enforcement. This tiered 
enforcement approach in the state of Texas contributed in the seizure 
of over 252,799 LBS of marijuana and 9122 LBS of cocaine in the Laredo, 
Rio Grande Valley, Del Rio, and Marfa Sectors. The 9122 LBS represents 
73% of the cocaine seized nationwide by the Office of Border Patrol.
    DHS will continue to assess, develop, and deploy the appropriate 
mix of technology, personnel, and information sources to gain, 
maintain, and expand coverage of the border in an effort to use our 
resources in the most efficient fashion. As an example, the use of 
technology, including the expansion of camera systems, biometrics, 
sensors, air assets, and improving communications systems can provide 
the force multiplier that CBP Border Patrol needs to be more effective.
    An example is the partnership between DHS and the Department of 
Justice to develop the IDENT/IAFIS integrated workstation, which 
captures a single set of fingerprints and submits them simultaneously 
to DHS' Automated Biometric Identification System (IDENT) and DOJ's 
Integrated Automated Fingerprint Identification System (IAFIS) for 
identity checks. With immediate access to IAFIS nationwide, Border 
Patrol agents have identified thousands of egregious offenders in FY 
2005, including 444 homicide suspects, 598 sex crime suspects, 149 
kidnapping suspects, and 11,844 suspects involved in dangerous drugs or 
trafficking, which otherwise may have gone undetected. With 31,414 
major crime hits and 120,268 total IAFIS hits through fiscal year 2005, 
we have made significant strides towards improving national security 
and greatly enhancing our ability to secure our Nation's borders.
    The United States continues to experience a rising influx of 
nationals other than Mexicans (OTMs) illegally entering the country. 
OTM apprehensions totaled 165,175 for FY05 over FY 04's record number 
of OTM apprehensions of 75,389. The 219% increase in the apprehension 
of OTM illegal entrant aliens has created additional challenges in 
bringing a level of operational control to the border. In response, DHS 
expanded the use of Expedited Removal (ER) proceedings for OTMs 
throughout the Southwest border. ER proceedings, unlike section 240 
removal hearings between apprehension and removal, shorten the duration 
of time between apprehension and removal. In September 2005, Secretary 
Chertoff announced the expansion of ER across the southwest border. A 
significant increase in bed space was allocated to support this 
expansion. Brazilian nationals were the initial focus for the ER 
program, and the influx of Brazilian nationals across the southwest 
border has been significantly reduced. ER has proven to be an effective 
enforcement tool for the southwest border.
    CBP is also working with the Government of Mexico on various 
initiatives including:

        <bullet>  Information Sharing--Border Patrol Liaison Program 
        units share information related to terrorist threats and 
        special interest aliens with the Government of Mexico. This 
        effort has resulted in 468 arrests of non-Mexicans in violation 
        of Mexican immigration laws. Mexican authorities have 
        identified many criminal organizations and issued multiple 
        arrest warrants for alien smuggling.

        <bullet>  Border Security Initiative--As this hearing is about 
        both safety and security, I would like to mention the Border 
        Patrol's ``Border Safety Initiative or BSI. In Fiscal Year 
        2005, southwest border deaths increased by 41% (464 in FY05 vs. 
        330 in FY04) and southwest border rescues have increased by 91% 
        (2570 in FY05 vs. 1347 in FY04). These statistics indicate that 
        a secure border will not only have an important law enforcement 
        component, but also yield the humanitarian benefit of saving 
        lives. Security and safety and inextricably linked.

    CBP Border Patrol's objective is nothing less than securing 
operational control of the border. We recognize the challenges that lie 
ahead and the need for a comprehensive enforcement approach. Our 
national strategy gives us the means by which to achieve our ambitious 
goal. We face these challenges every day with vigilance, dedication to 
service, and integrity as we work to strengthen national security and 
protect America and its citizens. I would like to thank you for the 
opportunity to present this testimony today and for your support of CBP 
and DHS. I would be pleased to respond to any questions that you might 
have at this time.

    Mr. Coble. Thank you, Mr. Garza.
    Mr. Bonner.

  TESTIMONY OF T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
 COUNCIL, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Bonner. Thank you, Chairman Coble, Chairman Hostettler, 
other distinguished Members of the Subcommittees. The National 
Border Patrol Council represents about 10,000 Border Patrol 
employees, and we have a slightly different take on the reasons 
for this increase in violence. It is the law of unintended 
consequences.
    When we began the crackdown at the border back in the mid-
1990's, very few people anticipated that what we would do would 
be to line the pockets of the smugglers. The cost of smuggling 
has increased tenfold since that time, from $200 to $300 per 
person, to $2,000 to $3,000 per person, and we are just talking 
about people coming from Mexico to the United States. The 
farther away from the United States you get, the more the 
profit margin rises. This has led to a squeezing out of the 
small-time operators and a taking over of these operations by 
the drug cartels and other organized criminals. And now what we 
are seeing is a power struggle between these organized criminal 
elements battling for control over the very lucrative human 
smuggling component.
    Obviously, the drug-smuggling component remains lucrative, 
but the human-smuggling element ranks right up there at the 
present time. This is very troubling, and it is something that 
can be easily prevented by recognizing why all of these people 
are coming to the United States.
    Back in the 1992 Presidential campaign, Democratic 
political strategist James Carville had a sign over his desk, 
which read, ``It's the Economy, Stupid,'' reminding him that 
that was the issue.
    I would suggest that Secretary Chertoff and every member of 
this Administration who has anything to do with immigration 
enforcement needs to put a sign over their desk saying, ``It's 
the Jobs, Stupid.'' That's why people are coming to this 
country. And as long as we pretend that we can stop people at 
the border from seeking a better way of life, people who are 
making on average $2 to $4 a day and can come up here and make 
15 to 50 times more working in the United States in an 
unskilled job, they will come. And we are not enforcing the 
laws at the work site now, and we need to start doing that.
    The laws that we have are somewhat flawed, I admit that. 
What we need to do is simplify it so that an employer has one 
document to scan through a reader, call an 800 number, and get 
an answer in very short order telling that employer, yes, this 
person is authorized to work here, or, no, this is person is 
not authorized to work here.
    Turning off the jobs magnet will eliminate 98 percent of 
the people coming across the border, allowing Federal law 
enforcement and State and local law enforcement agencies to 
focus on those drug smugglers and other criminals who operate 
within impunity right now at the border. We are not being very 
effective in stopping anything, either people coming across or 
drugs. If you look at the street price of drugs now, it is 
lower than it has been for some period of time, indicating that 
the supply it outpacing the demand.
    On the other hand, the supply of people coming across is--
there's a great demand in the United States for people coming 
to work here illegally, as evidenced by the fact that the 
illegal population continues to grow. The latest low-end 
estimate is 11 million people, and it could be as high as 15 or 
20 million people in this country illegally. And they're 
primarily here for one purpose--to get jobs.
    Now, I'm not saying that we don't need additional resources 
to fight against the terrorists and the criminals. We clearly 
do, and legislation that was introduced by Congresswoman 
Jackson Lee addresses many of those concerns. It would provide 
the Border Patrol and other border law enforcement agencies 
with necessary resources to carry out the fight against 
criminals and terrorists crossing our borders. But until we 
address the underlying cause of people coming across the 
border, we should not be surprised when people come across by 
the millions every year, and we should not be surprised that 
violence is escalating because we have contributed to this 
perfect storm. We have set the stage for this to become a very 
lucrative industry for organized crime.
    I thank you for your attention and look forward to your 
questions.
    [The prepared statement of Mr. Bonner follows:]

                   Prepared Statement of T.J. Bonner

    The National Border Patrol Council thanks the Subcommittees for the 
opportunity to present the views and concerns of the 10,000 front-line 
Border Patrol employees that it represents regarding the growing 
problem of violence along the southwest border of the United States.
    Although violence along the border between the United States and 
Mexico is by no means new, the frequency and ferocity of the latest 
surge are cause for alarm on both sides of the border. In the past 
year, for example:

        <bullet>  More than 150 people have been murdered in the town 
        of Nuevo Laredo, Mexico, just south of the U.S. border town of 
        Laredo, Texas, many of them as a result of the struggle between 
        the rival Gulf and Sinaloa cartels for control of the highly 
        profitable smuggling corridor leading into the United States. 
        This caused the U.S. Department of State to issue a travel 
        advisory earlier this year warning tourists of the potential 
        dangers associated with that region.

        <bullet>  The number of assaults against Border Patrol agents 
        nearly doubled, increasing from 354 in Fiscal Year 2004 to 687 
        in Fiscal Year 2005.

    In order to curb these disturbing trends, it is first necessary to 
understand their causes:
    In the early 1990's, the Federal Government embarked on an 
ambitious project designed to secure our borders. Over a dozen years 
later, although that goal remains as elusive as ever, a few lessons are 
emerging. Predictably, in those areas where significant resources were 
allocated, illegal cross-border traffic was significantly reduced. The 
Border Patrol's ``strategy of deterrence,'' which emphasizes high-
visibility positioning of vehicles within a few yards of the 
international border, has made agents vulnerable targets for an 
increasing number of attacks. These include hand-thrown rocks and 
Molotov cocktails, various projectiles launched by slingshots, as well 
as bullets fired from guns. Although most of these attacks are carried 
out as diversions intended to facilitate smuggling operations, their 
consequences are no less dangerous to Border Patrol agents.
    Despite significant budgetary and personnel increases for the 
agencies charged with securing our borders, the overall volume of 
traffic did not decline; it merely shifted to different areas. Upon 
reflection, the reasons for this are fairly obvious: The standard of 
living in developing nations has not improved significantly, and the 
disparity between unskilled wages in the United States and in those 
countries remains high. This, coupled with the nearly complete lack of 
worksite enforcement in the United States, continues to lure millions 
of people annually in search of employment. As long as illegal aliens 
are able to find work and settle in the United States without fear of 
detection and removal, they will continue to cross our borders 
illegally in large numbers.
    Long before the current crackdown at the border began, drug cartels 
also engaged in a limited amount of alien smuggling to facilitate their 
primary illicit operations. As the difficulty of being smuggled into 
the United States increased, the cost of being smuggled into the United 
States also began to rise, and small-time smugglers were squeezed out 
of the picture. The current cost of passage into the United States is 
about ten times greater than it was before the crackdown began. Gangs 
such as Mara Salvatrucha, commonly known as MS-13, have also entered 
the smuggling arena. All of these factors have resulted in violent 
struggles for control of these lucrative smuggling operations. Although 
most of this violence is directed at rival organizations, there is an 
inevitable spillover that touches innocent civilians and law 
enforcement officials on both sides of the border.
    The United States and Mexico share the blame for this deplorable 
situation. Both countries have largely turned a blind eye to illegal 
immigration, vainly hoping that borders which are essentially wide-open 
to millions of laborers desirous of crossing can somehow be sealed off 
against terrorists and other criminals. Because of this hypocritical 
policy, traditional law enforcement responses to the problem of 
violence along the border will do little to reduce it. The only 
meaningful solution lies in effectively addressing the underlying cause 
of illegal immigration.
    Until the employment magnet is dramatically weakened or eliminated, 
millions of impoverished people will continue to attempt to enter the 
United States illegally every year. Their desperation will cause them 
to do whatever it takes, including paying whatever price is asked, to 
be smuggled across our borders. This is problematic for two reasons. 
First, it perpetuates an extremely profitable illicit trade that 
engenders violent rivalries among cartels and gangs. Second, the 
massive volume of this influx makes it nearly impossible for law 
enforcement agencies to focus on vital anti-terrorism efforts or 
effectively prevent other criminals from illegally entering the United 
States.
    The Illegal Immigration Enforcement and Social Security Protection 
Act of 2005 (H.R. 98) would provide powerful disincentives to those 
seeking to cross our borders illegally in search of employment, as no 
employer would hire them unless they possessed a valid counterfeit-
proof Social Security card. For this reason, the National Border Patrol 
Council strongly supports that legislation.
    This would effectively put an end to the lucrative human smuggling 
trade, and allow the Border Patrol and other law enforcement agencies 
to focus their limited resources on preventing terrorists and other 
criminals from entering the United States. In order to achieve this 
goal, these agencies need adequate and suitable resources, policies, 
and support. The Rapid Response Border Protection Act of 2005 (H.R. 
4044) would provide many of these much-needed measures, and is also 
strongly endorsed by the National Border Patrol Council.
    In summary, the growing problem of violence along our borders is 
largely attributable to failed government policies that have resulted 
in the disintegration of the enforcement of our immigration laws. Until 
the underlying cause of the problem is addressed, it is unrealistic to 
expect that the symptoms will miraculously disappear.

    Mr. Coble. Thank you, Mr. Bonner, and I want to thank each 
of the witnesses for the role that you all perform each day. 
It's very vital, and I appreciate it very much.
    Mr. Cuellar, even though you don't sit on the Judiciary 
Committee, you do represent Laredo, very vital to this hearing. 
We would be happy for you to come to the podium if you would 
like to sit up here.
    Mr. Cuellar. No, thank you. I will just listen.
    Mr. Coble. Gentlemen, we impose--incidentally, we have been 
joined by the distinguished lady from--gentlelady from Texas, 
Ms. Jackson Lee, and the distinguished gentleman from South 
Carolina, Mr. Inglis.
    Gentlemen, we impose the 5-minute rule against ourselves as 
well, so if you all could be terse with your answers, that way 
we can move along.
    Mr. Swecker, Mexico has become a major source of heroin as 
well as a principal transit and distribution point for cocaine 
being transported from Mexico to U.S. markets. In fact, I have 
been advised that Mexican cartels may well be displacing 
Colombian traffickers to this end.
    What measures is the FBI taking, Mr. Swecker, to circumvent 
Mexican drug cartels and dismantle their organizational 
structure and drug-trafficking network?
    Mr. Swecker. Chairman Coble, we have liaison officers in 
five different cities along the border. They work directly with 
our Mexican counterparts, and we have, as I mentioned, over 50 
OCDETF investigations. What's significant about that is that we 
have designated certain drug-trafficking organizations through 
the OCDETF process as consolidated priority targets. That means 
everybody is going after them at the same time with all of 
their resources.
    I think one of the reasons that we're experiencing all of 
this violence just across the border is because we have, in 
fact, indicted both leaders of the Gulf Cartel: Juan Garcia 
Abrego, who is in jail, an American jail now; Osiel Guillen 
took over from him. He's also indicted, is in a Mexican jail at 
this point.
    So we're a little bit a victim of our own success because 
that splintered the--and we've had several cartels now go after 
the Gulf Cartel because they're perceived to be in a weakened 
state, and that is why they're moving into their territory. 
That's the primary cause of the violence. But we continue to go 
after the leadership of both sides of these two--there's 
another group, as I mentioned, called the Federation. We're 
going to after all of their leaders as well.
    All the agencies along the border are working this.
    Mr. Coble. Thank you, sir.
    Mr. Garza, with four bridge crossings and millions of 
pedestrians and vehicular traffic crossing between Laredo and 
Nuevo Laredo each year, the task facing CBP, Customs and Border 
Protection, obviously is daunting, particularly considering 
that many criminals cross the border without contraband, yet 
having the intent to commit crime on the U.S. side of the 
border.
    What training and intelligence do your agents receive in 
order to ensure that individuals crossing into the United 
States are not members of a gang or cartel and are not crossing 
specifically to commit a crime?
    Mr. Garza. Chairman, beyond the basic academy, both the CBP 
officers at the ports of entry who actually work at the 
international bridges and the U.S. Border Patrol agents, we 
have the on-the-job training, the senior patrol agent training 
dealing with antiterrorism. Gang-related information and 
intelligence is shared with each of the officers that are 
working at both the ports of entry and speaking specifically 
about Border Patrol agents and what training we get nationwide, 
has to do with mandated CBP and Office of Border Patrol 
National Headquarters training that we receive, each agent 
receives regarding not only how to deal with them but how to 
recognize them. And then each intelligence office, which is 
established in every sector and at every port of entry--well, I 
can't say every port of entry, but the office in charge in the 
case of Laredo would be one office over three or four of the 
bridges. Each one of those offices receives information and 
direction from headquarters to have this training, and it is 
periodic. We do it within our office semiannually.
    Specifically, the intelligence offices in each one of those 
sector offices and the ports of entry offices are responsible 
for getting this training to each one of the officers. It is 
name recognition. It is face recognition. It is actual on-the-
job type work and training.
    Mr. Coble. Thank you, sir.
    Mr. Bonner, how effective do you believe is the level of 
cooperation between Federal law enforcement agencies with one 
another, and between Federal law enforcement agencies and State 
and local agencies?
    Mr. Bonner. There is definitely room for improvement in all 
of those areas, sir. One of the issues that's being debated now 
is whether CBP and ICE should remain as separate entities or be 
merged together. One of the problems from that division was the 
lack of communication between those two entities, and that has 
hampered the cooperation that is necessary to address some of 
these very severe problems. And I would just like to comment on 
the earlier question about the training.
    The training and the systems that we have in place I 
believe are pretty much adequate for identifying people coming 
in to do us harm, except for terrorists who have no record and 
there's no way of making that recognition. The problem is we're 
only catching 25 to 33 percent of the people who are crossing 
the border, so the ones who get by you, you don't have any 
inkling of who they are and what they might want to do once 
they get by us.
    Mr. Coble. I thank you. My time has expired.
    The gentleman from Indiana, the Chairman of the Immigration 
Subcommittee.
    Mr. Hostettler. I thank the Chairman.
    At the outset, Mr. Bonner, you touched on an issue of 
tremendous concern to me and put it in a context for this 
hearing that I think is important to understand. Let me ask you 
a question. You talked about the jobs magnet and that if we 
turned off the jobs magnet, we would--I think you said that we 
would take care of 98 percent of the illegal crossings. Is that 
correct?
    Mr. Bonner. Right.
    Mr. Hostettler. So let me ask you this: In the context of 
violence, cross-border violence and violence committed by 
illegal aliens in the country in general, if the jobs magnet 
does not fuel violence as a result of what you are talking 
about, does it give oxygen to the fire of violence that is 
sweeping across our country, and especially in the border 
regions?
    Mr. Bonner. I think it does because you have criminal 
enterprises that are taking advantage of the desperation of 
people who are willing to pay whatever price it takes to get 
into the United States. You know, when you have people from 
China paying $50,000 to be smuggled into the United States--and 
these are peasants who can't afford that--they sell themselves 
into indentured servitude for 7 to 10 years to pay that bill. 
It shows the level of desperation of people, and what we have 
here is a situation wherein the criminals are taking advantage 
of that desperation, charging high rates, and now we have that 
power struggle because it has become such a lucrative industry.
    Mr. Hostettler. It also seemed in your testimony that it's 
growing at such a rate that it's, if not more lucrative, 
growing more lucrative than even the drug trade.
    Mr. Bonner. I believe it is. I believe that it has probably 
equaled, perhaps not surpassed, but it has become an extremely 
lucrative industry for the smugglers. And whereas, before, the 
drug trade would have some human trafficking so that they could 
have people act as mules to bring the drugs across or to serve 
as diversions, now it's become their bread and butter.
    Mr. Hostettler. Very good.
    Mr. Swecker, do we know how these--in your investigation of 
these gang members, especially gang members but those that are 
not--that are foreign-born that commit significant crime in our 
country, do we know how they cross the border, meaning do they 
cross the border in stealth as gangs, or do they come across 
the border in groups of individuals that we would potentially 
refer to as ``economic refugees,'' those that are coming to 
America for a better way of life? Do they meld into those 
groups of people, or do they come here in gangs as gang members 
when they come here?
    And then to follow on that, are most of these gang members 
illegally in the country? And how do the gangs recruit? Do they 
recruit from the illegal immigrant population or the legal 
immigrant population?
    Mr. Swecker. Okay. As far as how they come in, I think they 
take advantage, of course, of the daily flow of illegal 
immigrants across the border. They obtain false documentation 
whenever they can. I think the answer is all of the above. But 
you do know also that these ports of entry are controlled 
mostly by the drug traffickers, and in most instances, that's 
why the violence is taking place there, is to not only 
controlling the drug-trafficking corridors but in some cases--
in many cases the illegal migration corridors as well.
    As far as how they recruit, you're absolutely right, they 
take advantage of the sort of separation and alienation that 
these youth experience when they come into the United States 
and they don't have that support structure and they don't have 
anything to belong to, and particularly if they're young, in 
their teen years, when they're very vulnerable to recruitment, 
they catch them when they're 16, 17, 18, and 19, sometimes even 
younger than that.
    Mr. Hostettler. Are they in the country illegally? Not only 
are they young, but are they in the country illegally? Or are 
they--do they have family members, parents that are in the 
country illegally? Or is there any correlation there, 
significant correlation?
    Mr. Swecker. I don't have any hard data for you, but I 
think that's both as well. But I think most of the young 
members that they're recruiting are here legally.
    Mr. Hostettler. Legally. All right.
    Mr. Swecker. They're second generation, third generation.
    Mr. Hostettler. Okay. Thank you.
    I thank the Chairman.
    Mr. Coble. I thank the gentleman.
    The distinguished gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Garza, what ID--if an American goes to Mexico and comes 
back, what kind of ID do you need to cross the border?
    Mr. Garza. Basic--what kind of ID?
    Mr. Scott. Yes.
    Mr. Garza. That would be--actually, the inspector doesn't 
really require a U.S. citizen--through discussions with the 
person who is either driving, walking, coming across the port 
of entry at the bridge, will hold a discussion, ask a question, 
and through their training and their law enforcement 
experience, make a determination about whether they're telling 
the truth or not and whether they are entering the country and 
are a legal citizen of the United States.
    Mr. Scott. There's no formal ID requirement?
    Mr. Garza. No, sir. If they ask for--the inspector at--
whether it's at the inspection lane, vehicular, or in the 
pedestrian lane, will ask the question of the person coming to 
present themselves, and will ask enough questions and probe 
enough to satisfy that they are U.S. citizens, and if they're 
not, then they require the documents of that person.
    Mr. Scott. Okay. Mr. Swecker, or, I guess, anybody, 
recently they have formed a lot of task forces to try to deal 
with this issue. What kind of operational results can we show 
to demonstrate that these task forces are actually successful?
    Mr. Swecker. You know, we can talk about arrests, we can 
talk about drug seizures. I guess the real result we're all 
looking for is the elimination of the violence, and what I 
would suggest to you, sir, is I spent 8 years in South Florida 
working drugs on the streets down there, as did my colleague 
behind me. When we saturated South Florida with law 
enforcement, that squeezed everything down to the Mexican 
Southwest border. That was a business decision that was made by 
the drug traffickers and----
    Mr. Scott. Well, if the goal is to try to reduce drug use 
in America, squeezing it and changing it, does that help 
accomplish a goal? You spend all that money squeezing and 
changing, and the drug dealer--or the drug user in southern 
Florida goes to his dealer and he still gets the drugs. Is that 
right?
    Mr. Swecker. That's right, as long as there's a market and 
a demand in the U.S. for the drugs. What I'm suggesting----
    Mr. Scott. Wait. So long as there's a demand and a market 
for drugs, all of this just changes how it gets there. You 
haven't reduced the drug use in America with all this Border 
Patrol and everything else. Is that right?
    Mr. Swecker. Yes, sir. What I'm suggesting is that how many 
arrests, how many seizures--we've been doing that for 25 years. 
That doesn't--I don't believe that's a measure of success 
necessarily. It's reducing the demand in the U.S.
    Mr. Scott. Okay. I'm not sure who this would be aimed at, 
but some of the people coming across illegally are children. Is 
that right, Mr. Garza?
    Mr. Garza. Yes, sir. A small percentage are juveniles.
    Mr. Scott. What do you do to make sure they are treated 
humanely?
    Mr. Garza. Depending on the country that they are from, 
Congressman, but the majority being from the country of Mexico, 
we have a very close relationship with the Mexican Consul. 
There are several in our area of responsibility, particularly 
from the Rio Grande Valley Sector, Deep South Texas, and there 
are three offices there. We deal directly with them. Upon the 
apprehension or detention of someone under age, we immediately 
contact that consul--in this case, the Mexican consul. If they 
are from another country other than Mexico, then we contact the 
Office of Detention and Removal, and they contact that 
particular consul, whether it be Honduran, Guatemalan, wherever 
they may be from. And then they do get special care. They are 
taken to--if we do not have the detention space, they're taken 
to a place where we have contracted with so they can get the 
proper care there until they can be either joined up with their 
family members or returned to their country.
    Mr. Scott. Changing subjects a little bit, I represent a 
shipping port, and one of the challenges is trying to inspect 
the material without gumming up the commerce. When you are 
trying to get stuff, a lot of it trying to deliver in 24 hours, 
if you're stuck at the port for 3 days, you know, the commerce 
gets adversely affected.
    How does this work in a land port crossing the Mexican 
border? Can you facilitate commerce and still inspect the 
cargo?
    Mr. Garza. Yes, at the ports of entry, they have 
equipment--they're not all equipped, and I don't believe that 
all of them are adequately equipped--with what they call gamma 
ray scanners, and most of them are now on a rail system which 
allows for many multi-truck lanes to be checked and cargo--a 
lot at the land ports does come by truck, some by railroad. But 
those--that's one way that they are dealing with the enormous 
amounts, and Laredo is one----
    Mr. Scott. But you could do more inspections if you had 
more equipment.
    Mr. Garza. That's correct.
    Mr. Scott. Did anybody request, make a budget request for 
that equipment?
    Mr. Garza. Yes, sir, we did.
    Mr. Scott. And what happened to it?
    Mr. Garza. I don't know--because I'm representing the 
Office of Border Patrol, I would not be able to answer that, 
Congressman Scott. It's the Office of----
    Mr. Scott. But to the best of your knowledge, the equipment 
hasn't been purchased. Notwithstanding the fact that you 
requested the money, you didn't get the money. Is that right?
    Mr. Garza. I cannot speak to that, Congressman.
    Mr. Scott. Where could we track down what the request was?
    Mr. Garza. We can get those for you from the office of the 
district that's in charge of that.
    Mr. Scott. Thank you.
    Mr. Coble. I thank the gentleman.
    We've been joined by the distinguished gentleman from Ohio, 
Mr. Chabot. Good to have you with us, Steve.
    The gentlelady from Texas, Ms. Jackson Lee, who is the 
Ranking Member for the Immigration Subcommittee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. This is 
obviously a hearing long in coming, and I am delighted that we 
have the combined Committees with the Ranking Members and other 
Members of the Subcommittee on Crime and the Subcommittee on 
Immigration and Claims.
    Allow me, first of all, to ask unanimous consent that my 
entire opening statement may be submitted into the record.
    Mr. Coble. Without objection.
    [The prepared statement of Ms. Jackson Lee follows:]

      Prepared Statement of the Honorable Sheila Jackson Lee, a 
     Representative in Congress from the State of Texas, Member of 
         Subcommitte on Crime, Terrorism, and Homeland Security

    Although I am concerned about the violence in Nuevo Laredo, 
territorial integrity is my main concern as the Ranking Member of the 
Subcommittee on Immigration, Border Security, and Claims.
    On August 12, 2005, New Mexico's Governor Bill Richardson issued an 
Executive Order declaring a State of Emergency along the New Mexico-
Mexico border. Governor Richardson declared that the southern border of 
New Mexico had been devastated by the ravages and terror of human 
smuggling, drug smuggling, kidnaping, murder, destruction of property, 
and the death of livestock.
    On August 15, 2005, Arizona Governor Janet Napolitano declared a 
State of Emergency along the Arizona-Mexico border. According to 
Governor Napolitano, illegal border crossings run as high as 3,000,000 
a year, and this has resulted in an increase in the threat to public 
health and safety from gangs, coyotes, and others engaged in dangerous 
criminal activities along the Arizona-Mexico border.
    On October 12, 2005, Texas Governor Rick Perry announced a 
comprehensive security plan for the Texas-Mexico border region. 
Governor Perry asserted that Al Qaeda and other terrorists and criminal 
organizations view the porous Texas-Mexico border as an opportunity to 
import terror, illegal narcotics, and weapons of mass destruction.
    State Governors should not have to resort to such drastic actions. 
I know, however, that the federal government is working on the border 
security problems. For instance, the administration announced recently 
that it is abandoning its ``catch and release'' policy, which was being 
applied to aliens who are from countries other than Mexico (known as 
``OTMs'').
    Although Mexican nationals who are caught crossing the border 
illegally can be returned to Mexico, the Mexican government will not 
accept the return of OTMs. Due to the lack of detention facilities, the 
OTMs have had to be released. More than 100,000 OTMs have been released 
already this year. Terrorists can use this situation as an opportunity 
to enter the country illegally without drawing any attention to 
themselves. It is not possible to thoroughly screen more than 100,000 
OTMs a year before deciding whether to release them. I am pleased that 
the administration intends to stop the catch and release practice, but 
I do not know how the administration can detain the OTMs with the 
available detention facilities.
    Mexico also has cooperated in dealing with the OTM situation. Most 
of the OTMs come from Latin American countries, and Mexico recently 
restricted access to its visa waiver program and established visa 
requirements for the citizens of most Latin American countries, 
including Brazil and Ecuador. This will make it more difficult for 
people from Latin American countries to use Mexico as a stepping stone 
to make an illegal entry into the United States.
    The administration, however, has not done enough to secure the 
border. The Border Patrol needs more agents and more resources. My 
Rapid Response Border Protection Act, H.R. 4044, would meet these needs 
by providing critical resources and support for the men and women who 
enforce our immigration, customs, and other laws.
    This would include adding 15,000 Border Patrol agents over the next 
five years, increasing the number of agents from 11,000 to 26,000. It 
would require the Secretary of the Department of Homeland Security 
(DHS) to respond rapidly to border crises by deploying up to 1,000 
additional Border Patrol agents to a State when a border security 
emergency is declared by the Governor. It would add 100,000 more 
detention beds to ensure that those who are apprehended entering the 
United States unlawfully are sent home instead of being released into 
our communities. And, it would provide critical equipment and 
infrastructure improvements, including additional helicopters, power 
boats, police-type vehicles, portable computers, reliable radio 
communications, hand-held GPS devices, body armor, and night-vision 
equipment.
    We will not have a secure border until we provide the Border Patrol 
with the equipment and resources that it needs.
    Thank you.

    Ms. Jackson Lee. And I will summarize it but also say that 
my tardiness to this meeting was because I was in a Homeland 
Security meeting voting on the Committee product that would 
ultimately go to the floor on border security.
    To my dismay, of course, some of the vital issues that 
we're discussing right now may not have had a full impact, and 
let me just suggest the following: We are very concerned about 
violence at the border, in particular coming from Texas, 
knowing full well the extent and the range of the needs there 
on the border, including New Mexico, Arizona, and other border 
States like California also having firsthand experience, 
watching the Border Patrol and ICE agents in place and in 
operations and standing at border sites watching the inspectors 
work and doing a very good job in detaining and/or detecting 
fraudulent and false documents.
    But it speaks to the point that, one, we must find the crux 
of the reason for such a flow of undocumented illegal 
immigrants and illegal immigration, and I think Mr. Bonner has 
made a very excellent point, and for someone who represents 
Border Patrol agents to be so sensitive that we're dealing with 
an economic crisis.
    I'm delighted that my colleague, Congressman Cuellar, is 
here and was in the room because he has been a steadfast, if 
you will, advocate for some reasonable response to the crisis 
in the border.
    But to the two chairmen and Ranking Member, what speaks to 
this crisis is that we have three States--New Mexico, Arizona, 
and Texas--where the Governors have had to themselves take up, 
if you will, arms and issues on the question of border 
security. I maintain that the whole question of the failed 
policies of the United States as it relates to border security 
have resulted in these crisis States. I do believe that we have 
the capacity, the talent, and should have the resources that 
the security of the border should be a Federal responsibility. 
And to do that, we must provide the funding and the staffing 
and the resources for those who are entrusted with the 
responsibility.
    The Minutemen of the early Founding Fathers certainly 
brings to us great patriotism, and we certainly welcomed them 
in that historical perspective. I don't believe we welcome them 
as securers of the border. It is violent. It is difficult. It 
is long. It is large. And that is not the appropriate way to 
begin to address the questions of border security.
    Let me thank all of the front-line men and women who serve 
every single day, struggling with resources and, of course, 
needing more resources that could make them more effective. We 
know today that as it relates to OTMs that was just mentioned, 
that even today we are having difficulty with Mexico in this 
situation. Although Mexico has cooperated with the various 
requests on OTMs, it is understood that although Mexican 
nationals who are caught crossing the border illegally can be 
returned to Mexico, at this point the Mexican Government will 
not accept the return of OTMs. And due to the lack of 
facilities, the OTMs have had to be released. And more than 
100,000 OTMs have been released already this year. Terrorists 
can use this situation as an opportunity to enter the country 
illegally, to address the question of drugs and otherwise.
    I offer into the amendment, Mr. Chairman, this following 
article: ``Eight people accused of smuggling girls for 
prostitution.'' It was the second suspected sex ring to be 
targeted in 2 months, November 15, 2005, the Houston Chronicle. 
I ask unanimous consent.
    Mr. Coble. Without objection, it will be received.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    [The article follows:]

   Article submitted by the Honorable Sheila Jackson Lee: ``8 People 
   Accused of Smuggling Girls for Prostitution,'' Houston Chronicle 

                          (November 15, 2005)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Jackson Lee. Accused eight Houstonians of smuggling 
girls into--girls and young women. The opening paragraph says, 
`` `The promise of legitimate jobs was used to lure girls and 
young women to Houston from Central and South America,' Federal 
authorities said Monday. But what they got is rape, beatings, 
and the threat of even worse were used to force them into 
prostitution once they were here. The women told the 
investigators that the customers were charged $200 to $500 per 
night, but that the women were not allowed to keep any money. 
Others said $500 to $600 per week selling drinks to male 
customers but received only $50 a week.''
    Mr. Swecker, let me ask a series of questions. Mr. Swecker, 
what I understand is happening at the border--and, by the way, 
would you answer whether or not the FBI has been investigating 
or is involved in helping to investigate the missing Americans 
that are on the border? But what I understand this violence has 
generated around is the whole question of drugs. And I think 
it's important in this hearing to separate out the violence 
dealing with drugs and the violence dealing with the question 
of smuggling or illegal immigrants so that when we develop 
policy initiatives and resources, we will understand what the 
best approach is.
    If my good friend Mr. Garza could answer the question just 
simply about what our friends at the border need, meaning our 
Border Patrol agents--for example, portable computers, handheld 
global positioning system devices, night vision equipment, body 
armor, weapons, power boats, helicopters, whether this kind of 
package--and, of course, the collecting of detention beds that 
might be helpful in some of the detainment issues--would be 
helpful? And would you also comment on your distinguishing 
between the violence of drugs and individuals coming over for 
economic reasons, though they may be undocumented and illegal, 
how that distinguished in your work. Mr. Swecker?
    Mr. Swecker. Yes, with respect to kidnappings, we're 
working each one of them--I mean, there are many that are not 
reported, as I mentioned earlier, for fear of reprisals, for 
fear of the fact that some of these individuals may or may not 
be involved in the drug trade. We have 35 open investigations 
right now. We estimate there's another 40 or so that have not 
been reported. We can't get the information out of the victims. 
So we're working those very, very aggressively. Twice now we 
have passed information to the Mexican authorities which 
resulted in the rescue of about 44 kidnapping victims down 
there, only one of which was a U.S. citizen, and that citizen 
was wanted in the U.S. for murder.
    So we're working very aggressively, to answer that 
question.
    Ms. Jackson Lee. If you'll give me a written report, if you 
would, I'd appreciate it.
    Mr. Swecker. Yes, ma'am.
    Ms. Jackson Lee. Thank you.
    Mr. Swecker. And you had a second question about----
    Ms. Jackson Lee. Drugs.
    Mr. Swecker. Drugs and the violence associated with the 
drugs. As we talked about earlier, there's been a lot of good 
enforcement activity down on the border on both sides. The 
resulting violence has been the type of situation that results 
from the leadership of these cartels being taken out and other 
groups perceiving weakness and trying to move in on the 
lucrative corridors. And you have the Mexican authorities on 
the other side who either are thoroughly intimidated or part of 
the problem in the form of corruption or who just can't do 
anything about it. They're not as powerful as the cartels, the 
cartels having hired essentially their own armies to go at it. 
And they're going at it with AK-47s and grenades and RPGs and 
that type of thing. I've seen some horrendous videos. One 
instance, it was actually a documented video of the battle in 
the streets for 30 minutes.
    So it does stem from the drug trade, and as I mentioned 
earlier, there wouldn't be a drug trade if we didn't have the 
high demand on this side.
    Ms. Jackson Lee. Thank you.
    Mr. Garza?
    Mr. Garza. Yes, ma'am, thank you for the question.
    In response to the resources and equipment, most definitely 
we can always use more. We have a lot of territory to cover, in 
the Rio Grande Valley Sector, if I could speak specifically 
about the sector I work in, 313 or so river miles, 250 coastal 
miles that we're responsible for in the State of--the lower 
State of Texas that goes down to the mouth of the river at 
Brownsville, Texas, or Port Isabel, to cover that much 
territory.
    We know that an increase in resources--that a combination 
of the increase in those resources, not only manpower resources 
but what America's Shield Initiative is doing now in getting 
the technology into us, to our area, the infrared cameras. Of 
course, the helicopters with infrared and flare capability are 
a big, positive thing for the type of law enforcement we're 
involved in. But it has to be a combination of those things in 
the way of resources.
    As far as illegal drugs and aliens, we have found in our 
intelligence gathering--and this is working very closely with 
the Mexican Government, our partners at ICE, FBI, and other 
agencies, Federal agencies and local, is that the smugglers--
part of the reason for--another reason for the violence there 
is that they are trying to move both--trying to move both types 
of commodities, both contrabands, both people and any type of 
contraband in the drug realm through and trying to see who can 
take control of those particular people.
    As Mr. Bonner gave testimony to earlier about the smuggling 
groups and the type of people that are coming in and how 
they're trying to come in and the reasons they're coming in, 
it's a combination of those two, using both those type of 
contrabands to get--rather, I'm sorry, the smuggling 
organizations fighting over to bring in both types.
    We have found that some of the organizations are moving 
both types of contraband, and that's the reason for the 
violence and the turf wars that they have there.
    Mr. Coble. The gentlelady's time has expired. We'll try to 
do a second round.
    Ms. Jackson Lee. I thank the distinguished gentleman.
    Mr. Coble. You bet. We have two more Members. The gentleman 
from Ohio is recognized for 5 minutes.
    Mr. Chabot. I thank both chairmen for holding this very 
important hearing. This is a problem that we've faced for many 
years in this country, and I want to thank this panel for being 
here, and apologize also for having a conflict in my scheduling 
and not having been here at the early part of this hearing. So 
if I ask anything that's already been asked, I apologize for 
that in advance as well.
    I happen to represent the city of Cincinnati. Could you 
tell me what measures are being taken to capture and detain 
members or connections with the Mexican cartels in U.S. cities? 
So if they've made it in here and they have connections where a 
lot of the drugs are going, what involvement do you have with 
respect to American cities? And I'll throw that open to 
anybody.
    Mr. Reid. I would like to take a stab at answering that. I 
think that when we're looking at drug-smuggling investigations, 
generally speaking, what happens at the border and information 
that we obtain from either the border investigations or 
information that we obtain in Mexico from the Mexican 
Government or through investigations we have in Mexico is 
shared throughout the country. For example, ICE agents that 
would be working in Cincinnati would have the access and 
availability to any information that was gathered in any drug-
smuggling investigation in any office, any ICE office in the 
country.
    In addition to that, I think that, generally speaking, the 
Federal agencies work well in task forces, for example, the 
OCDETF task forces and the HIDTA task forces, in which there is 
identification of the organizations that are--that do the 
smuggling and the distribution into the United States.
    So among the sharing of information, working jointly on 
task forces, I think that we are attacking the problem anywhere 
and everywhere that it exists in the United States.
    Mr. Chabot. Thank you.
    Does anybody else want to take a stab at that? Mr. Swecker?
    Mr. Swecker. Just briefly, with respect to the OCDETF 
program and cities like Cincinnati, which are what we call the 
heartland cities, there was a time when we just went after 
targets of opportunity. Whoever--whatever information you had, 
you moved on that particular drug organization.
    At this point we share intelligence on a national level, 
and we've designated certain drug organizations as the top 
organizations to go after collectively. Those are called CPOTs, 
consolidated priority target list organizations. There's 
another level down called RPOTs, which are regional targets. We 
go over those as well, and they're approved by a committee. The 
idea is to have everybody focused at the same time at the same 
targets. A city like Cincinnati would have an inventory of 
those types of cases, and they would have both RPOT and CPOT 
type cases. They'd be working major cartels as they related to 
the node in Cincinnati, and they would be working in 
conjunction with whoever else had open investigations on that 
CPOT target, but also their own targets, who would be one tier 
down as well.
    I think it's a good approach because it's an intelligence-
driven approach to drug cases.
    Mr. Chabot. Thank you.
    My second question has to do with--so many times we find 
out that while you all are fighting the battle or your 
colleagues or associates are fighting the battle, there's 
corruption at various levels, whether it be officers or 
sometimes all the way to the top on the other side.
    How do you go about determining whether or not we're all on 
the same team and who the bad apples are and making sure that 
they're not tipping off or putting your people in even more 
dangerous situations than they otherwise would be? What is the 
process that you go through there? And is there any way it 
could be improved? Is there any way we could help, for example? 
Whoever would, again, like to answer that. Mr. Reid?
    Mr. Reid. Yes, I think that you're referring to the notion 
of corruption in Mexico and the sharing of information.
    Mr. Chabot. Yes.
    Mr. Reid. I worked on the Southwest border in the middle 
part of my career in the 1990's, and at that time we were very 
reluctant to share information with either the Federal or the 
State or local law enforcement agencies within Mexico for the 
fear of corruption. But at that time, even at the Federal 
level, we were able to get cooperation. In fact, as a case 
agent on a significant money-laundering case in Tucson, I was 
able to get records from the Hacienda, which is the Mexican 
version of the Treasury.
    What I observe from the mid-1990's to 2005 is that the 
Mexican Government seems to have made a concerted effort at 
cleaning up its law enforcement from the Federal Government on 
down, so that we are able to share more closely information 
with the Mexican Government, specifically or particularly at 
the Federal level, with CESIN, their intelligence operation, 
and with AFI, their version of the FBI, that we work very well 
with them, which translates to work we can do at the border, 
work we can do targeted toward the smuggling organizations in 
Cincinnati in other places.
    So at the Federal level, I think we're doing okay. When it 
gets down to the Mexican state level and the municipal level I 
think is where we have more problems. And the way I look at it 
is this: It's that in the Mexican economy, the law enforcement 
officers at the state and local level do not get paid very 
much, and looking at the drug cartels and the significant 
amount of money that's generated by the trafficking and the 
smuggling of drugs and by the taxes--taxes, if you will--that 
they charge the human-smuggling organizations, et cetera, to 
move through their territory, the wealth that they have is 
significant.
    And when you're looking at the law enforcement at the state 
and municipal level over there, you look at an officer who may 
not get paid very much in his or her job, and the cartel, which 
has significant money, and so that there is, you know, some 
buy-off of the state and local officers.
    Mr. Coble. The gentleman's time has expired, and do you 
want to wrap up real quickly?
    Mr. Reid. If I can make one more.
    Mr. Coble. All right.
    Mr. Reid. In addition to that, there's the threats of 
extortion and intimidation on the local law enforcement 
officers, even ones who are not--who would not be willing 
recipients of the bribes from the cartels.
    Mr. Chabot. Thank you.
    Mr. Coble. I thank the gentleman from Ohio.
    The distinguished gentleman from Arizona is recognized for 
5 minutes.
    Mr. Flake. Thank you, Mr. Chairman. And thank you. I 
apologize for not having heard the testimony. I've looked 
through some of the written testimony.
    Mr. Reid, can you estimate how many of those coming across 
the border, let's say the Mexican border, into either 
California, Arizona, or New Mexico or Texas, are coming with 
criminal activities in mind or as drug runners or smugglers?
    Mr. Reid. Are you asking how many people----
    Mr. Flake. Yes, what percentage of the total that are 
coming across.
    Mr. Reid. That's a figure that I don't have and----
    Mr. Flake. Would anybody venture a guess as a percentage?
    Mr. Bonner. Congressman, when they married the Border 
Patrol's fingerprint system with that of the FBI, in the first 
4 months 8 percent of the people had criminal records to some 
degree. Now, obviously, not all of these people were murderers 
or rapists. A few of them were. So I think that that's--and 
that's just the ones that we caught, which is perhaps 25 to 33 
percent of the total traffic coming across.
    Mr. Flake. Okay. But most estimates put it around--well, 
some say as many as 99 percent of those coming across are 
coming across for solely economic reasons. But say it's 95 or 
so. Mr. Garza, if we were to have a legal framework for workers 
to come and then return home through border checkpoints, 
assuming that if they could come for work through a legal 
channel and then return home, how much easier would that make 
it for the Border Patrol to actually--and for Customs and for 
our entire enforcement operation, to actually target those who 
are coming for reasons other than work?
    Mr. Garza. Congressman, there would definitely be--for the 
people who were involved in the program, there would be--the 
safety issues would--the officer safety issue basically would 
go away. However--and I can't speak to the investigative side 
of the house. We don't have that responsibility. But the fraud 
and all that we've seen historically in any type of a program 
that would have some sort of a worker program would increase 
for that agency, whether ICE would be involved in that or--more 
than likely it would be ICE. But I believe that enforcement-
wise there might be a slight decrease in the issue of the 
violence and so forth because you're going to have some sort of 
legal mechanism, and as long as it's for the people who are 
outside of the country making application for that type of 
program; however, if you do it within the country, then I don't 
believe that that's going to change any of the issues. And the 
people outside the country will feel like I should have been 
there when that benefit was given and withdraw at that----
    Mr. Flake. Well, we are talking about a benefit that would 
in some way touch those who are here legally now, but it would 
also provide an avenue for those coming, say, from Mexico or 
through Mexico who are able to secure a legal job or legal 
presence through a temporary worker program. Under the old 
bracero programs--and nobody's trying to replicate that--there 
were a lot of problems with it. But it was said that 
apprehensions at the border went down about 95 percent because 
there was a legal avenue for people to come through.
    All I'm trying to suggest--and I want your input and, Mr. 
Bonner, you may want to comment on it. Wouldn't it be easier to 
actually target those with the resources that we have, even 
enhanced resources, if some 90 percent, 95 percent are actually 
coming through legal border checkpoints? Then the resources 
that we have could be better focused on those who are coming to 
do us harm, the criminals that we're worried about. Mr. Bonner?
    Mr. Bonner. Assuming that you're willing to close the back 
door. As long as you leave open the possibility that people can 
come in and get work if they're in the country illegally, why 
would anyone bother to use the front door?
    Mr. Flake. Right. That's a very important point, and that's 
why you've got to have the interior enforcement and workplace 
enforcement that really would make any program like this work. 
But assuming you could and people knew that the only way that 
they could get here and work is through a legal process, then 
certainly targeting those who are coming for criminal activity 
would be easier, would it not? Mr. Reid or Mr. Swecker, do you 
want to comment on that?
    Mr. Reid. Yes. In our view, from the investigation's point 
of view, it certainly would be. But I think that you have hit 
it right, Congressman, that in addition to that, you need to 
have the effective work site enforcement or the interior 
enforcement program that perhaps increases penalties, civil and 
criminal, for those who knowingly or blindly knowingly--you 
know, willful blindness, hire illegal aliens. I mean, there has 
to be that part of that--that part of it has to be more 
effective.
    Mr. Flake. I couldn't agree more. Couldn't agree more. Any 
other comments? Yes.
    Mr. Swecker. Just briefly, I think the best thing that's 
happened recently is the marriage of the fingerprint systems, 
the two fingerprint systems. The only way to know who's really 
coming across the border is biometrically. Documents can be 
forged easily, and when we finally merged those two systems, I 
think it was a revelation as to who was coming across.
    Mr. Flake. Thank you.
    Thank you, Mr. Chairman.
    Mr. Coble. Folks, we have a vote on right now. There's 
going to be three votes, and I dislike having to inconvenience 
the panel, but I do think this probably warrants, if you all 
don't mind, if you all will cool your heels, as the old saying 
goes, then we'll be back as soon as we can.
    Let me start my second question. I think we can get to that 
before we go. Los Zetas and similar type enforcement arms of 
the cartels have engaged, obviously, in violent activities, 
even threatening the security of U.S. nationals. Given these 
factors, do you all think it would be appropriate to designate 
the Zetas as a foreign terrorist organization, A? And would 
such designation aid in your efforts to prevent them from 
further extending their tentacles into our area? Whoever wants 
to handle that. Mr. Swecker?
    Mr. Swecker. I'm not sure we really--i think we would be 
mixing apples and oranges and confuse the definition of a 
terrorist organization. And we define a terrorist organization 
as an organization that's trying to effect political change 
through violent means in our country. The Zetas are purely an 
enforcement arm of a criminal organization that's engaged in 
the pursuit of profit, money. And I think--I don't think that 
that would be a viable thing to do to mix and match those, but 
I think we should give them special designation of some kind to 
go after them.
    Mr. Coble. Mr. Reid, very briefly.
    Mr. Reid. Very briefly, I don't think--also, I don't think 
it would aid us in any way to designate them as terrorist 
organizations because the substance of what they do is violent 
criminal activity, and we have the laws--State, Federal, 
local--to go after that sort of violent activity.
    Mr. Coble. Well, let me extend what the gentleman from Ohio 
said. This becomes very delicate territory. He talked to you 
about corruption, and I think it's commonplace, I have been 
told, that corruption in sensitive areas in Mexico is, in fact, 
rampant.
    Conversely, do we have any evidence that such corruption is 
practiced on this side, on our side of the border in sensitive 
areas--border guards, Customs agency, for example?
    Mr. Garza. Chairman, while we do have a very small 
percentage of people that we must discipline or terminate 
within our organization--and we attribute that to the 
supervision--supervisory levels and the supervisory training 
that we have and the current ratio, which we're trying to get 
down to a 5:1 ratio of agents. And that basically that type of 
supervision over your employees--and, of course, in our 
uniformed type of operation, it's easy for us to tell who is 
who. I couldn't speak for the investigative branch, but I 
assure you, it's a very small, small percent.
    Mr. Coble. Well, I was hoping that would be the answer.
    Yes, Mr. Reid? Again, quickly, because we have got to get 
to the floor.
    Mr. Reid. Okay. There is no comparison between the 
corruption that we see in Mexico and what----
    Mr. Coble. I wouldn't think so.
    Mr. Reid. There's the human nature factor. That's it.
    Mr. Coble. Well, when greed rear its ugly head, all of us 
are vulnerable, I guess.
    Thank you all. If you all will stand in recess----
    Mr. Gohmert. Mr. Chairman?
    Mr. Coble [continuing]. And then--yes, sir?
    Mr. Gohmert. Would you yield for just a moment on that same 
question?
    Mr. Coble. Very quickly.
    Mr. Gohmert. Are you aware of how many complaints there are 
pending against people at the higher levels of ICE and CIS?
    Mr. Reid. No, I don't have those----
    Mr. Gohmert. You don't have any numbers on that?
    Mr. Reid. No, I don't.
    Mr. Coble. If you could get numbers, we'd be glad to get 
those.
    If you all stand in recess, folks, we will--some of us will 
return. Thank you all for your patience.
    [Recess.]
    Mr. Coble. I appreciate your patience and the patience of 
those in the hearing room. I know the gentlelady from Texas has 
another question. I think I've exhausted my questions. If we 
can get Ms. Jackson Lee in, we can conclude this. Is she on her 
way?
    Very well. While we are treading water and stalling for 
time, I just want to thank you all for your appearance here 
today and for your patience. Oftentimes, this--sometimes--I 
don't mean this in a demeaning way, but sometimes we operate 
not unlike a circus around here, and we never know when that 
bell's going to ring, and inevitably it oftentimes rings right 
in the middle of a hearing, as was the case this morning.
    So if you all will suspend for the moment, and if anybody 
wants to be heard while we're waiting for Ms. Jackson Lee, 
anybody have any issues on your mind that we haven't touched 
upon?
    [No response.]
    Mr. Coble. Okay. Well, we'll just rest easy until she gets 
here then. Thank you.
    [Pause.]
    Mr. Coble. The gentleman from Indiana is here, so we will 
yield to him and recognize him for 5 minutes. Thank you, Mr. 
Hostettler.
    Mr. Hostettler. Thank you, Mr. Chairman.
    Mr. Reid, I tend to agree with Agent Bonner with regard to 
the jobs magnet and the part that it plays in the way I look at 
it being creating a haystack, if you will, a huge haystack 
which law enforcement must deal with the needles in that 
haystack from time to time. And that haystack is created as a 
result of literally millions of people coming into our country 
every year illegally and wanting to better their economic 
status and get a job in our country.
    That being said, under the former INS, special agents 
performed many tasks that are essential to the enforcement of 
our Nation's immigration laws, such as employer sanctions 
audits and jail checks for criminal aliens.
    The first question is: Does ICE believe that special agents 
should perform these tasks today? I guess that's my first 
question.
    Mr. Reid. Okay. We recognize the necessity for those type 
of tasks, but whether they should be for special agents, no. 
Special agents are criminal investigators, as are the FBI 
special agents or DEA, et cetera. And the focus of our criminal 
investigations needs to be organizations, et cetera, 
organizations that smuggle--that participate in human 
smuggling, facilitate the human smuggling, et cetera. So the 
agents do the criminal investigative work.
    In the 2006 budget, we were fortunate enough to get money 
to hire within Investigations different job classes, which we 
are working the details out on that right now where we would 
look at hiring auditors who would go out and do the--to work 
sites and do the I-9 audit, that kind of thing. But they would 
not be special agents. They would be auditors in the same--
perhaps in the same sense that DEA has a compliance unit and 
ATF would have a compliance unit.
    Mr. Hostettler. Okay. So this is not a holdover policy that 
is taking place in ICE as it was in INS.
    Mr. Reid. Well, at the present, yes, it is. But we are 
working toward, you know, creating a different organization. So 
working----
    Mr. Hostettler. So that special agents do----
    Mr. Reid. Criminal investigation, yes.
    Mr. Hostettler. But in the old INS, they did employer 
sanctions audits.
    Mr. Reid. Employer--now, if we're talking about work site 
enforcement, work site enforcement is a very important part of 
our criminal investigation program, and it really has--there 
are three elements to it that we're looking at. One is that 
we're looking for the large employers that could potentially 
hire illegal aliens in certain job markets--retail, 
agricultural, et cetera--to the largest employers, looking 
toward those larger to develop cooperative agreements with them 
in which they would patrol their own police forces, in a sense. 
It's a compliance concept that is very similar to what is 
conducted by CBP in the trade area, where you create an 
environment in which employers will look at their own 
workforces or their own trade goods in the CBP arena to work 
toward the common goal of keeping, you know, illegal aliens out 
of the workforce. So that's one part of it.
    A second part of it would be where we look at what we call 
egregious violators, and that would be the criminal, looking at 
criminal violations with respect to the hiring of illegal 
aliens. And a part of that, as Secretary Chertoff has stated on 
a number of occasions, would be to increase and enhance the 
civil and criminal penalties related to the hiring of illegal 
aliens.
    And then the third part of the work site enforcement is 
what we call critical infrastructure, the CIP program, where we 
look at employers who are involved in any sort of critical 
infrastructure. For example, on military bases, contractors on 
the military bases making sure that their workforces do not 
include--or create an environment in which the illegal aliens 
can be part--can be on the base and, you know, perhaps in 
secure areas.
    So work site enforcement is very important, and special 
agents will continue to do that.
    Mr. Hostettler. I appreciate the testimony and the 
sentiment that work site enforcement is very important. I 
believe it is, too. But the problem that we have is convincing 
our constituents of that. For example, the GAO did a study 
recently that found there were three notices of intent to fine 
that were actually issued in 2004. When I talk to my 
constituents about that, the only thing that we can 
collectively gather from that is, according to this 
Administration, that there were three locations in the United 
States of America that had employed illegal aliens in 2004.
    Most of our folks are not willing to accept that, and I 
appreciate that work site enforcement is important, and I think 
numbers would go a long way to prove that to our constituents.
    Let me move on now so that--my time is limited. Let me ask 
Agent Garza--and, without objection, may I have an additional 
minute?
    Mr. Coble. An additional minute will be granted.
    Mr. Hostettler. Thank you.
    Agent Garza, we saw some pretty troubling slides with 
regard to the fire power that is available for the people that 
you and your fellow agents have to deal with. Are Border Patrol 
agents adequately resourced, adequately armed to meet--we heard 
earlier about grenades and RPGs--full auto assault weapons, 
RPGs, grenades. Are you well armed, adequately armed, 
adequately resourced to meet this onslaught?
    Mr. Garza. Fortunately, we have recently received resources 
that have brought our firearms capabilities to a much higher 
level. We, of course, all receive a firearm, a sidearm that we 
carry in our holster on our belt when we leave the academy. All 
other training for long arms--or, rather, issuance of long arms 
is done at the sector headquarters. Each individual sector does 
that. Each one of the sectors has a long arm, an automatic--
well, that's a semiautomatic M-4, and shotguns available to 
each agent for checkout.
    In addition to that, we have our special response teams at 
each sector that also have the fully automatic versions of 
the--well, different manufacturers make them for us, but we 
have fully automatic weapons for a particular corps of special 
response team members.
    As far as adequate training, we train--our training 
requirement, firearms training requirement, is more than, I 
think, anyone else, I think Federal, and any State and local 
for sure. We do that quarterly. Every agent must be trained in 
all weapons that he or she is authorized to carry four times a 
year.
    And so I'll speak for my sector individually. Everyone 
there has access to one of these types of firearms, especially 
the sidearm, but any other long arm they are entitled to.
    Now, is that--can we combat--with that fully automatic 
weapon, even in the hands of a Border Patrol agent, can you 
combat things and the type of weapons that can be brought upon 
us by a terrorist? At this point, no, we wouldn't be prepared 
for a hand grenade attack or an RPG attack. That's one thing. 
And we're very vulnerable. On the river, as we use boats in our 
sector to actually get on the international border, in the Rio 
Grande River, for more than anything else a deterrent effect 
and gather intelligence--we don't do any interceptions on the 
river, but you can see that someone--an agent's there, and the 
safety issue, officer safety factor, where they have a 360 
degree--yes, where they can potentially get attacked from. But 
with what we have now and what we do in those particular areas 
that we patrol, we have the best that we can acquire at this 
time.
    Mr. Hostettler. Thank you.
    Mr. Garza. You're very welcome.
    Mr. Coble. The gentleman's time has expired. I thank the 
gentleman.
    Ms. Jackson Lee is recognized.
    Ms. Jackson Lee. I thank the distinguished gentleman. I 
hope that that partnership between the Chairman and Ranking 
Member of the Subcommittee on Crime, that your partnership with 
Chairman Hostettler and myself, I think we need to have a 
border security bill out of this Committee. And I would hope 
that maybe we would have one with a lot of the elements that 
we've discovered here today.
    Might I start off with Mr. Bonner, and I want to thank him 
for being engaged in law enforcement. And, frankly, every time 
he has an opportunity to speak, he confronts the reality of our 
immigration system that we will not be able to stop illegal 
immigration without countering it with issues dealing with the 
economic concerns and dealing with--I think we were also 
discussing employer sanctions as I came in, or those questions 
were being raised.
    But your point is vital because if we can't come together 
around some of the larger issues that we have an economic 
system that is broken in Mexico and other parts of South 
America--I am sure there would be some who take issue to my 
terminology of ``broken,'' but might I just simply say there 
are large numbers of individuals who come for economic reasons.
    If we're given that, I think that we should then spend a 
lot of our time in addition to a comprehensive immigration 
system, and as you well know, I've written Save America 
Comprehensive Immigration bill that includes protecting 
American jobs. But we must look at border security 
realistically, and it disturbs me that there is a sense of 
penny-pinching and also that there is a sense that the front-
line officers may not be doing all that they can do.
    Help me--you mentioned earlier the Rapid Response Border 
Protection Act of 2005, which was a result of inquiring of a 
number of law enforcement agencies, which include the Border 
Patrol, also, of course, ICE officers and DEA officers, some 
very front-line individuals. It also covers my going to the 
border, walking along the borders, being there at night, 
watching, if you will, the lack of equipment, but really the 
lack of personnel. And Mr. Garza said it very well--I want him 
to restate that--when I asked him a question. The miles--I know 
he said 313 river miles, which really requires helicopters, and 
then he will recite for me the land miles.
    But let me ask you, if you would, to speak about, Mr. 
Bonner, specifically this approach in legislation and how we 
can pierce the understanding on it. Let me raise these points.
    Speak to what comes out of Border Patrol agents having the 
ability to deploy 1,000 additional Border Patrol agents to a 
place of crisis, like Laredo, for example. Speak to the value 
of having a sufficient number of detention beds. We have 
supported anywhere from 40,000 increase to legislation that 
includes 100,000 beds, and, of course, not unrealistically, but 
gathering together Federal, State, and local facilities. Speak 
to the idea of what additional helicopters and powerboats and 
reliable radio communications, handheld GPS devices, and body 
armor and night vision may do, but also I think it's important 
to get on the record what it means to have a good recruitment 
process and what it means to be able to have Border Patrol 
agents who feel comfortable in the bargaining process.
    Now, I have never heard of Border Patrol agents striking or 
doing something untoward away from their duty. But it would be 
helpful to know how valuable that is for the men and women on 
the front lines to know that we care enough about them that we 
want to hear their issues, we want to discuss their issues, we 
want to fix their recruitment program, and we want to work on 
these facets.
    Mr. Garza, I'd like you to answer--I'm interested in re-
establishing the Border Patrol anti-smuggling unit. I know that 
it was moved, but you have to teach us. And I believe that if 
you even had two and those two segments worked together between 
ICE and between Border Patrol--and I know that we're supposed 
to be coordinated. But I think there was something to the 
front-line individuals confronting these smugglers right there 
on the scene and being able to track their prosecution. 
Remember, I'm the State that had the tragedy of Victoria. I'm 
the State that is seeing constantly the utilization abuse of 
women. And so I'd like you to speak forward-like and 
straightforward-like. Mr. Bonner, would you--I yield to you.
    Mr. Coble. Mr. Bonner, if you'll suspend, I'm not trying to 
put anybody on an assembly line deal here, but we got to get 
out of here pretty soon, so if you all could be very terse, if 
it's okay, in response to----
    Ms. Jackson Lee. And we thank the Chairman for his 
indulgence.
    Mr. Coble. You are indeed welcome.
    Mr. Bonner?
    Mr. Bonner. Picture the illegal flow of whatever--people, 
drugs--as a long, skinny balloon that stretches from one part 
of the border, the Pacific Ocean, to the Gulf of Mexico. You 
squeeze it in one spot, and it's going to migrate to another 
spot, which is why it's important to have the ability to 
rapidly response, because we've seen it in San Diego. When we 
put pressure there, it moved over to other parts of California, 
ultimately to Arizona. As we put pressure on Arizona, we are 
seeing it emerge in New Mexico and in Texas, and back in 
California. That is important.
    Equipment for Border Patrol agents to do their job is also 
absolutely vital. You can't just expect agents to go out there 
with the sidearm and a radio that in some parts of the country, 
many parts of the country where we patrol, can't communicate 
with other radios because of inadequate infrastructure.
    All of these things are necessary if we expect our Border 
Patrol agents to do the job that they were hired to do. And in 
the interest of time, I'll yield to Mr. Garza.
    Ms. Jackson Lee. Thank you.
    Mr. Garza?
    Mr. Garza. Thank you. In regards to the smuggling unit, 
even prior to us becoming part of DHS and specifically CBP, 
even under INS the anti-smuggling unit were special agents. 
They were designated as special agents.
    The Border Patrol has never been an investigative branch or 
had an investigative branch within the Border Patrol. These 
agents--at that time, anti-smuggling agents were assigned to 
the sector chiefs, and, yes, they were a very valuable tool to 
us because of the immediate intelligence that we could pass on 
to them, the furtherance of an investigation. It was someone 
who was within the same office.
    However, I believe now--and we've gone through the 
transition period. It's been a couple of years now with ICE and 
other law enforcement--Federal law enforcement agencies, but 
specifically ICE because they now have the assets that were 
once ASU, under their direction, anti-smuggling unit agent went 
directly over to the ICE office, now working for them, and they 
do a number of different types of investigations, of course, 
narcotics and alien smuggling.
    Our direct contact with them, because there was a 
separation of an office, anyway, when it was ASU, is really no 
different. Yes, the chief would--no doubt some of the chiefs, 
and maybe the majority, would like to have that under their 
command as a sector entity organization. However, the fact that 
they--that ICE still and has proceeded to create a smuggling--a 
human-trafficking unit, they have group supervisors in charge 
of that. We reach out to them, and the working relationship--at 
least I can speak directly for several Texas sectors--is 
outstanding. Any calls that we have, any intelligence, we pass 
on to ICE. We have a joint task force where Border Patrol 
agents--again, not investigators--but do work closely with that 
task force and our members of the task force are there with 
ICE. The information is passed on immediately, and we get 
immediate reaction from the ICE agents in that investigative--
--
    Ms. Jackson Lee. If I may, the Chairman is getting ready to 
gavel, but I assume if Congress decided they'd like to have the 
anti-smuggling unit as it was before, to create that hand-in-
glove relationship, you all would welcome it.
    Mr. Garza. Yes, ma'am.
    Ms. Jackson Lee. Mr. Bonner, let me just--you speak to a 
lot of agents on the ground. Would that be a comfortable fit if 
that was to be restored again? Because that investigatory arm 
would be right close up to those who are out on the field.
    Mr. Bonner. Absolutely. It's something that we sorely miss. 
And not to contradict Mr. Garza too much, but the level of 
investigations--the number of investigations, rather, has 
declined, the smuggling investigations. We're simply not 
putting people out of business the way we used to. And, yes, 
others would rise up and take their place, but we miss that, 
and that's a tool that we need back.
    Ms. Jackson Lee. Well, let me, Mr. Chairman--and the two 
chairmen, let me thank you all very much. I do want to put 
something on the record. We worked in a bipartisan manner on 
these two Committees. I want DHS Leg. Affairs to know that when 
a Democrat Ranking Member asks for a witness, it is acceptable 
for that witness to be a witness of a Democrat. We all happen 
to be citizens of the United States committed to promoting the 
support and issues that are important. Let us not have that 
kind of petty party politics in an issue as important as border 
security and the securing of America.
    With that, Mr. Chairman, I yield back and thank you for 
this hearing.
    Mr. Coble. Well, again, I thank Chairman Hostettler and 
Ranking Member Jackson Lee from----
    Ms. Jackson Lee. Chairmen, plural.
    Mr. Coble [continuing]. Texas--pardon?
    Ms. Jackson Lee. Chairmen, plural.
    Mr. Coble. Oh, yes. And the gentleman from Virginia, who is 
not--I think he's in another Committee right now. But I thank 
the witnesses as well. The Subcommittee very much appreciates 
your contribution.
    In order to ensure a full record and adequate consideration 
of this very important issue, the record will be left open for 
additional submissions for 7 days. Also, any written questions 
that a Member wants to submit should be submitted within that 
same 7-day period.
    This concludes the joint oversight hearing on ``Weak 
Bilateral Law Enforcement Presence at the United States-Mexico 
Border Area: Territorial Integrity and Safety Issues for 
American Citizens.'' Thank you again for your cooperation, and 
the Subcommittee stands adjourned.
    [Whereupon, at 12:49 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Reponses to questions for the Record from Chris Swecker, Assistant 
               Director, Federal Bureau of Investigation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


  Responses to questions for the Record from Ray Garza, Deputy Chief 
            Patrol Agent, U.S. Customs and Border Protection

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Responses to questions for the Record from William Reid, Acting 
   Assistant Director, Office of Investigations, U.S. Immigration & 
                          Customs Enforcement

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
